APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the Supreme Court of the State of
Wyoming (November 6, 2019) ............................ 1a
Dissenting Opinion of Chief Justice Davis
Joined by Justice Fox ....................................... 41a
Judgment and Sentence Order of the District
Court of the State of Wyoming,
Converse County (October 22, 2018) ............... 67a
Mittimus Order of the District Court of the State
of Wyoming, Converse County
(October 22, 2018) ............................................ 71a
Order of the District Court of the State of
Wyoming, Converse County, Finding Guilty
at Jury Trial (March 23, 2018) ........................ 74a
TRIAL RECORD
Jury Verdict in the District Court of the
State of Wyoming, Converse County
(March 21, 2018) ............................................... 76a
Jury Trial Transcript, Hearing on Motion
for Acquittal (March 21, 2018) ......................... 77a
Jury Trial Transcript, Objection
to Jury Instruction (March 21, 2018) ........ 97a
Defendant’s Proposed Instruction No. 3 .............. 100a

App.1a
OPINION OF THE SUPREME COURT
OF THE STATE OF WYOMING
(NOVEMBER 6, 2019)
IN THE SUPREME COURT, STATE OF WYOMING
________________________
LEWIS ALAN DUGAN,

Appellant (Defendant),
v.
THE STATE OF WYOMING,

Appellee (Plaintiff).
________________________
2019 WY 112
S-18-0296
Appeal from the District Court of Converse County
The Honorable F. Scott Peasley, Judge
Before: DAVIS, C.J., and FOX, KAUTZ,
BOOMGAARDEN, and GRAY, JJ.
KAUTZ, Justice.

[¶1] A jury convicted Appellant Lewis Alan
Dugan of stalking, in violation of Wyo. Stat. Ann. § 62-506(b) and (e)(i) (LexisNexis 2017). On appeal, Mr.
Dugan asserts the statute is unconstitutional as
applied to his conduct because it punishes speech
protected by the First Amendment to the United States
Constitution. He also claims the district court erred
in instructing the jury and refusing to use his requested

App.2a
special verdict form, the evidence was insufficient to
show he harassed the victim, and the district court
erred by admitting evidence that he had been warned
not to send unsolicited letters.

[¶2] We affirm.
ISSUES
[¶3] We have rephrased Mr. Dugan’s appellate
issues and re-ordered them to facilitate a more
structured analysis:

I.

Was Mr. Dugan’s right to free speech under
the First Amendment to the United States
Constitution violated when the State prosecuted him under the criminal stalking statute,
§ 6-2-506, for sending letters to the victim?

II. Did the district court abuse its discretion by
incorrectly instructing the jury on Mr.
Dugan’s theory of defense and the definition
of obscene and/or by refusing his request for
a special verdict form?
III. Did the State present sufficient evidence to
establish Mr. Dugan harassed the victim under
the statutory definition in § 6-2-506(a)(ii)?
IV. Did the district court abuse its discretion by
admitting evidence that Mr. Dugan had
been warned not to send unsolicited letters?
FACTS
[¶4] In January and February 2017, Mr. Dugan
sent ten letters to the victim at her workplace in
Douglas, Wyoming. Mr. Dugan was imprisoned at
the Wyoming Medium Correctional Institution in

App.3a
Torrington, Wyoming, when he began sending the
letters. He continued to send the victim letters after he
was transferred to the Wyoming State Penitentiary
in Rawlins, Wyoming, on February 1, 2017. Mr.
Dugan was a friend of the victim’s son when they were
in school, but the victim had not had a conversation
with Mr. Dugan in over twenty years and never
asked him to correspond with her.
[¶5] The letters were generally rambling dissertations on Mr. Dugan’s life, with a recurring theme that
he wanted a romantic and sexual relationship with the
victim. They contained numerous sexually explicit
statements. Mr. Dugan asked the victim to send him
“hot sexy pictures” of herself in a bikini or “booty
shortz.” He asked the victim whether her favorite
sexual position was to “get on top and ride,” “the guy
on you,” or “doggie style.” He said he liked “the 69er.”
Mr. Dugan asked whether she was a “moaner” or a
“screamer” in bed. He said he could “find her crazy
spots[.] [E]very woman has crazy good spots[.]” Mr.
Dugan indicated his penis was not “a long one but
it’s fat and round.” He wrote, “I know how to make
you have good orgasms or cum really good.” Mr.
Dugan asked whether she knew about “flavored oil[ ]
like the stuff I’d drip on you then I’d lick it off mmm
so sometimes p[eo]pl[e] drip it on your boobs and
your cooter then lick it off.” He said he wanted to
sleep nude and shower with her. Mr. Dugan told her
he fantasized about them taking the illegal drug,
Ecstasy (which he spelled XTC), and having sex.

[¶6] Mr. Dugan said he had been “checking [the
victim] out” before he went to prison and described
seeing the victim going home or to work and the car
she drove. His letters also demonstrated he knew he

App.4a
should not be writing to her. He asked her numerous
times not to contact law enforcement and not to tell
his parents he was writing to her because “they
always get on my ass about it.”

[¶7] The victim contacted law enforcement when
she started receiving Mr. Dugan’s letters. She stated
the letters made her feel “sick and nervous and scared.”
Converse County Sheriff Department Investigator
Keri McNare testified the victim was “very upset.”
Law enforcement officials told Mr. Dugan to stop
writing letters to the victim. He did not heed the
warnings and continued to send her letters.

[¶8] Two investigators interviewed Mr. Dugan
at the penitentiary on February 13, 2017. He admitted during the interview that he knew the victim did
not want his letters, but he continued to send them
anyway. After the investigators left, Mr. Dugan sent
at least one more letter, begging the victim not to tell
law enforcement he was communicating with her.
The last letter included a limited apology and did not
contain any express sexual statements. However, he
did refer to matters from his earlier letters that were
related to his sexual desires, including requests that
she send him pictures and a plea for a relationship
with her.

[¶9] The State charged Mr. Dugan with felony
stalking of the victim in violation of § 6-2-506(b) and
(e)(i). He pleaded not guilty, and the case proceeded
to trial in March 2018. The jury found Mr. Dugan
guilty, and the district court sentenced him to prison
for four to seven years, to be served concurrent with
another sentence. This appeal followed.

App.5a
DISCUSSION
I.

First Amendment

[¶10] Mr. Dugan claims the State violated his
rights under the First Amendment to the United
States Constitution by prosecuting him under § 6-2506(a)(ii) for his protected speech.1 A court’s determination of whether a statute is constitutional on its
face or as applied to a defendant is a matter of law,
subject to de novo review.2 Sanderson v. State, 2007
WY 127,¶ 31, 165 P.3d 83, 92 (Wyo. 2007).
A. The Stalking Statute—Section 6-2-506 (2017)
[¶11] The relevant portions of § 6-2-506 (2017)3
provided:
(a) As used in this section:

(i) “Course of conduct” means a pattern of conduct composed of a series of acts over any
1 Mr. Dugan does not argue the comparable provision of the
Wyoming Constitution provides additional protection. Wyo.
Const. art. 1 § 20 (“Every person may freely speak . . . on all
subjects, being responsible for the abuse of that right[.]”).
2 Mr. Dugan presents his constitutional challenge by claiming
the district court erred in denying his motion for a judgment of
acquittal. Regardless of how the issue is framed, the parties
agree Mr. Dugan’s constitutional claim involves a question of
law which we review de novo.
3 The statute was amended in 2018. 2018 Wyo. Sess. Laws, ch.
63, § 1, ch. 97, § 1. The amendment does not affect this action
because it was commenced in 2017. Wyo. Stat. Ann. § 8-1107
(LexisNexis 2019); Counts v. State, 2014 WY 151, ¶ 19, 338
P.3d 902, 907 (Wyo. 2014) (statutory amendments generally
apply prospectively and do not affect pending actions unless the
legislature expressly provides otherwise).

App.6a
period of time evidencing a continuity of
purpose;

(ii) “Harass” means to engage in a course of
conduct, including but not limited to verbal
threats, written threats, lewd or obscene statements or images, vandalism or nonconsensual
physical contact, directed at a specific person
or the family of a specific person, which the
defendant knew or should have known would
cause a reasonable person to suffer substantial emotional distress, and which does in
fact seriously alarm the person toward whom
it is directed.
(b) Unless otherwise provided by law, a person
commits the crime of stalking if, with intent to
harass another person, the person engages in a
course of conduct reasonably likely to harass that
person, including but not limited to any combination of the following:
(i)

Communicating, anonymously or otherwise,
or causing a communication with another
person by verbal, electronic, mechanical, telegraphic, telephonic or written means in a
manner that harasses;
[...]

(e) A person convicted of stalking under subsection (b) of this section is guilty of felony stalking
punishable by imprisonment for not more than
ten (10) years, if:
(i)

The act or acts leading to the conviction
occurred within five (5) years of a prior
conviction under this subsection, or under

App.7a
subsection (b) of this section, or under a
substantially similar law of another jurisdiction[.]

B. General First Amendment Law
[¶12] The First Amendment to the United States
Constitution states in relevant part: “Congress shall
make no law . . . abridging the freedom of speech.”
“‘[A]s a general matter, the First Amendment means
that government has no power to restrict expression
because of its message, its ideas, its subject matter,
or its content.’” United States v. Stevens, 559 U.S.
460, 468, 130 S.Ct. 1577, 1584, 176 L.Ed.2d 435
(2010) (quoting Ashcroft v. American Civil Liberties
Union, 535 U.S. 564, 573, 122 S.Ct. 1700, 1707, 152
L.Ed.2d 771 (2002)) (other citations omitted). The
First Amendment is applicable to the states through
the Fourteenth Amendment to the United States
Constitution. Mekss v. Wyo. Girls’ School, 813 P.2d
185, 192-93 (Wyo. 1991).
[¶13] A litigant may assert a statute violates
his right to free speech through a facial challenge or
an as-applied challenge. “A statute is unconstitutional on its face if it prohibits a substantial amount of
protected expression. If a statute is facially overbroad
in violation of the First Amendment[,] it cannot be
enforced in any part.” Rutti v. State, 2004 WY 133,
¶ 11, 100 P.3d 394, 401 (Wyo. 2004) (citing Ashcroft,
535 U.S. at 244, 122 S.Ct. at 1398-99) (other citations
omitted). An as-applied challenge, on the other hand,
considers the “statute in light of the charged conduct.” United States v. Franklin-El, 554 F.3d 903,
910 (10th Cir. 2009) (citing United States v. LaHue,
261 F.3d 993, 1005 (10th Cir. 2001)); Martinez v. City

App.8a

of Rio Rancho, 197 F.Supp.3d 1294, 1309 (D. N.M.
2016). See also, Dougherty v. State, 2010 WY 127,
¶¶ 7, 15, 239 P.3d 1176, 1179, 1181 (Wyo. 2010)
(using the same as-applied standard for a due process
vagueness claim); Rabuck v. State, 2006 WY 25,
¶ 16, 129 P.3d 861, 865 (Wyo. 2006) (same). “If an asapplied challenge to the constitutionality of a statute
is successful, the statute may not be applied to the
challenger but is otherwise enforceable.” 16 C.J.S.
Const. Law § 243 (2019).

C. Section 6-2-506 Is Constitutional on Its Face
[¶14] Mr. Dugan acknowledges this Court ruled
the stalking statute is constitutional on its face in
Luplow v. State, 897 P.2d 463 (Wyo. 1995). We said
§ 6-2-506 is not overbroad because it does not reach a
substantial amount of protected speech. Id. at 46768. See also, Garton v. State, 910 P.2d 1348, 1351
(Wyo. 1996). “It is true it may inhibit speech, but
only in a constitutionally permissible way.” Luplow,
897 P.2d at 467. While Mr. Dugan does not make an
overt facial challenge, his argument blurs the boundary
between a facial challenge and an as-applied challenge.
In order to properly address his arguments, it is
necessary to review some aspects of the law regarding
the facial constitutionality of the statute.
[¶15] The general rule is:
The First Amendment guaranty of free speech
does not preclude punishment for criminal
stalking. A criminal defendant’s right to
free speech is permissibly subordinated to a
victim’s right to be free of repetitive unwanted
verbal and nonverbal communications likely
to instill a reasonable fear of harm. A

App.9a
criminal stalking statute is valid if not overbroad, regulating conduct and not speech.
16B C.J.S. Const. Law § 1127 (2019).
[¶16] Properly crafted harassment or stalking
statutes do not punish the simple act of communicating
statements; they punish repeated communications
done with an unlawful intent to harm another person.
By incorporating some or all of the following elements
into the statutory language, a legislature may limit
the statute’s reach to avoid a substantial impact upon
protected speech: the defendant act with specific
criminal intent; the defendant make repeated communications to the victim; the communications cause
the victim to suffer a significant or substantial negative
reaction; the victim’s reaction is objectively reasonable; and political speech is expressly excluded from
the statute’s reach. See, e.g., United States v. Osinger,
753 F.3d 939, 943-44 (9th Cir. 2014) (upholding a
federal statute that stated, “Whoever . . . (2) with the
intent . . . to kill, injure, harass, . . . or intimidate [a
person] . . . uses the mail, any interactive computer
service, or any facility of interstate or foreign commerce
to engage in a course of conduct that causes substantial emotional distress to that person shall be
punished[.]”); United States v. Petrovic, 701 F.3d
849, 856 (8th Cir. 2012) (same); Thorne v. Bailey, 846
F.2d 241 (4th Cir. 1988) (upholding West Virginia’s
harassment statute which prohibited calls made with
the specific intent to harass); People v. Taravella,
350 N.W.2d 780 (Mich. Ct. App. 1984) (upholding a
Michigan statute which prohibited telephone communications made with the intent to harass); State v.
Camp, 295 S.E.2d 766 (N.C. Ct. App. 1982) (upholding a North Carolina statute which prohibited repeated

App.10a
telephone calls made with the purpose of harassing
another); State v. Elder, 382 So.2d 687 (Fla. 1980)
(upholding a Florida statute prohibiting anonymous
phone calls made with the intent to harass). Compare,
Matter of Welfare of A.J.B., 929 N.W.2d 840, 854-55
(Minn. 2019) (declaring Minnesota stalking by mail
statute unconstitutional because it did not include
elements requiring proof of a specific criminal intent
or substantial harm to the victim).
[¶17] By including these requirements, the legislature criminalizes conduct without reaching a substantial amount of protected speech. 16B C.J.S. Const.
Law § 1127. In other words, “the proscribed acts are
tethered to the underlying criminal conduct and not
to speech.” Osinger, 753 F.3d at 944. The United States
Supreme Court in Cox v. Louisiana, 379 U.S. 536,
555, 85 S.Ct. 453, 465, 13 L.Ed.2d 471 (1965) (internal
quotations and citation omitted), expressed the concept in a more general way: “[I]t has never been
deemed an abridgment of freedom of speech . . . to make
a course of conduct illegal merely because the conduct
was in part initiated, evidenced, or carried out by
means of language, either spoken, written, or printed.”
[¶18] Section 6-2-506 bears all the hallmarks of
a statute that criminalizes conduct without reaching a
substantial amount of protected speech. It requires
proof that the defendant acted with the specific intent
to harass the victim. Section 6-2-506(b); Dean v. State,
2014 WY 158, ¶ 10, 339 P.3d 509, 512 (Wyo. 2014);
Luplow, 897 P.2d at 468. Section 6-2-506 (a)(ii) and
(b) incorporate the concept of repeated communications
to the victim by requiring the State to prove the
defendant engaged in a “course of conduct.” Id. “Course
of conduct” is defined as “a pattern of conduct composed

App.11a
of a series of acts over any period of time evidencing
a continuity of purpose.” Section 6-2-506(a)(i). See also,
Hawes v. State, 2014 WY 127, ¶¶ 9-11, 335 P.3d 1073,
1076-77 (Wyo. 2014) (insufficient evidence of “course
of conduct” element of § 6-2-506). The definition of
“harass” in § 6-2-506(a)(ii) requires proof the defendant knew or should have known his conduct “would
cause a reasonable person to suffer substantial emotional distress, and which does in fact seriously
alarm the person toward whom it is directed.” See
generally, Veile v. Martinson, 258 F.3d 1180, 1189-90
(10th Cir. 2001) (sufficient evidence that victim was
seriously alarmed as a result of Mr. Veile’s statements that he would “ruin” the victim’s business and
reputation and the victim’s religion was a cult and
other harassing conduct). Section 6-2-506(c) carves
out political speech from the statute’s coverage: “This
section does not apply to an otherwise lawful demonstration, assembly or picketing.”
[¶19] Despite his recognition of our decision in
Luplow and his claim to be raising only an as-applied
challenge to the statute, Mr. Dugan puts forth arguments which are principally challenges to the facial
constitutionality of § 6-2-506. He asserts our statute
is “in all essential elements” the same as the statute
the Illinois Supreme Court declared unconstitutional
on its face in People v. Relerford, 104 N.E.3d 341 (Ill.
2017). Mr. Dugan is incorrect. The Illinois statute was
broader than § 6-2-506.
[¶20] The Illinois court ruled the statute reached
a substantial amount of protected speech, in part,
because it did not require proof that the defendant
acted with a specific criminal intent. Instead, it imposed
criminal liability for negligent conduct. Relerford, 104

App.12a
N.E.3d at 352-53, 356. The court noted that the absence
of a specific intent element distinguished the Illinois
statute from the federal stalking statute considered
in Osinger and Petrovic.4 Id. at 352. Because it was
critical to the Illinois court’s decision that the statute
did not require a specific criminal intent, Relerford is
consistent with authorities distinguishing criminal
conduct from protected speech. Relerford does not,
therefore, support Mr. Dugan’s claim that § 6-2-506
violates the First Amendment guaranty of freedom of
speech.
[¶21] Mr. Dugan also asserts that because § 62-506 singles out communication that is lewd or
obscene,5 it is a content-based regulation of speech,
subject to strict scrutiny. A means-end analysis like
strict scrutiny is appropriate only when a statute
infringes on a substantial amount of protected speech.
4 Relerford, 104 N.E.3d at 353, also noted the statute did not
criminalize the “historic and traditional categories of unprotected
speech,” which include threats, speech integral to a crime,
fighting words, obscenity, child pornography, and commercial
speech that is misleading or concerned only with illegal activity.
Id.; R. Galloway, Basic Free Speech Analysis, 31 Santa Clara L.
Rev. 883, 893-94 (1991).
5 Although neither party points it out, the stalking statute at
the time Luplow was decided did not include “lewd or obscene
statements or images” in the definition of harass. Luplow, 897
P.2d at 465. That language was added in 2007. 2007 Wyo. Sess.
Laws, ch. 161 §§ 1-2. Garton, 910 P.2d at 1351, was also decided
before the statute was amended. Even though the statute did
not include a specific reference to lewd or obscene statements,
we concluded Mr. Garton’s First Amendment rights were not
violated when he was prosecuted under § 6-2-506(b)(i) for
making lewd and obscene telephone calls and mailing items
suggesting lewd and lascivious acts. Id. at 1351.

App.13a
R. Galloway, Basic Free Speech Analysis, 31 Santa
Clara L. Rev. 883, 886 (1991). If a statute infringes on
free speech, a court must determine if the government
complied with the rules the Supreme Court
has developed for enforcing that freedom.
These rules often take the form of means-end
scrutiny, a mode of legal analysis that focuses
on the government interests (ends), the effectiveness of the method (means) chosen to further those interests, and the availability of
less restrictive alternative means. Some
infringements, including most content-based
infringements, are subject to strict scrutiny.
Some, including most content-neutral
infringements, are subject to mid-level meansend scrutiny.

Id. Strict scrutiny “requires the establishment of [a]
compelling state interest and the showing that the
method of achieving [the interest] is the least intrusive
of those methods by which such can be accomplished.”
In re RM, 2004 WY 162, ¶ 13, 102 P.3d 868, 873
(Wyo. 2004) (internal quotations and citation omitted).
Mid-level or intermediate scrutiny requires the establishment of a significant governmental interest and
the showing that the method of achieving the interest is narrowly tailored to serve that purpose. See
Clark v. Community for Creative Non-Violence, 468
U.S. 288, 293, 104 S.Ct. 3065, 3069, 82 L.Ed.2d 221
(1984).
[¶22] The fact that § 6-2-506 identifies “lewd or
obscene statements” in the definition of harass does
not make it a content-based regulation on speech rather
than a regulation of conduct without a significant
impact on protected speech. People v. Kucharski, 987

App.14a
N.E.2d 906 (Ill. Ct. App. 2013), addressed a claim that
an Illinois statute, which prohibited obscene communications made with the specific intent to offend, unconstitutionally regulated speech based upon its content. The court concluded the statute was constitutional because it controlled conduct, not a substantial
amount of protected speech. Id. at 914. Obscene communications made with criminal intent are restricted
“not because its content communicates any particular
idea . . . [but] because of the purpose for which it is
communicated.” Id. See also, Perkins v. Commonwealth, 402 S.E.2d 229, 232-33 (Va. Ct. App. 1991)
(statute which prohibited the use of “obscene, vulgar,
profane, lewd, lascivious, or indecent language” with
the specific intent to “coerce, intimidate or harass”
regulated conduct not a particular category of speech);
State v. Richards, 896 P.2d 357, 361-63 (Idaho Ct. App.
1995) (statute prohibiting telephoning another “with
the intent to annoy, terrify, threaten, intimidate, harass
or offend” and communicating “to or about such person any obscene, lewd or profane language, or mak[ing]
any request, suggestion or proposal which is obscene,
lewd, lascivious or indecent” regulates conduct, not
protected speech); State v. Dugan, 303 P.3d 755, 76972 (Mont. 2013) (after invalidating a provision that
created a presumption of intent, the Montana Supreme
Court upheld a statute that criminalized communication using obscene, lewd or profane language or suggesting a lewd or lascivious act made with the specific purpose of terrifying, intimidating, threatening,
harassing, annoying, or offending the victim). We,
therefore, reaffirm our holdings in Luplow and its
progeny that § 6-2-506 is constitutional on its face.

App.15a
D. Section 6-2-506 Is Constitutional As-Applied
to Mr. Dugan
[¶23] Mr. Dugan claims § 6-2-506 is unconstitutional as applied to him. When assessing whether
a statute is unconstitutional as applied to a defendant, we consider the statute in light of his specific conduct. Franklin-El, 554 F.3d at 910; Dougherty, ¶¶ 7,
15, 239 P.3d at 1179, 1181. We review an as-applied
challenge “solely in light of the State’s evidence of
[Mr. Dugan’s] conduct, giving it the benefit of every
favorable factual inference that may fairly be drawn
from the record.” Guilford v. State, 2015 WY 147,
¶ 17, 362 P.3d 1015, 1018 (Wyo. 2015).
[¶24] The evidence showed Mr. Dugan engaged
in a course of conduct by sending a series of letters to
the victim which contained explicit descriptions of
sex acts he wanted to perform with the victim. Mr.
Dugan knew his letters were unwanted and improper.
Law enforcement warned Mr. Dugan to stop writing to
the victim, but he continued to do so. This evidence
showed he had a specific intent to harass and knew or
should have known his letters would cause a reasonable
person to suffer substantial emotional distress. The
evidence also showed the victim found the letters
seriously alarming. She stated she felt “sick to her
stomach,” “nervous and scared.” Investigator McNare
testified she observed the victim to be “very upset”
about the letters. The State, therefore, demonstrated
that Mr. Dugan’s communications with the victim
amounted to illegal harassing conduct rather than
constitutionally protected speech.
[¶25] Mr. Dugan argues the State encouraged
the jury to convict him based solely upon the content
of his speech by unduly emphasizing the sexually ex-

App.16a
plicit aspects of his statements in its presentation of
the evidence and arguments to the jury. As we explained above, the State can lawfully regulate obscene
statements under a statute that prohibits illegal harassment. The evidence that Mr. Dugan’s statements
were obscene pertained to the harassment element of
the crime, which the State was required to prove.
Presenting and arguing evidence of the crime to the
jury was not only appropriate, it was required under
the terms of the statute.
[¶26] Nevertheless, Mr. Dugan argues that the
State’s inappropriate attempt to prosecute him solely
on the basis of his speech is demonstrated by some of
the witnesses’ answers to a series of questions about
other topics. Daring cross-examination, defense counsel
asked Investigator McNare:
Q.

. . . These may be dumb questions; you’ll have
to excuse me. But if Mr. Dugan wrote a letter
to [the victim] that said, single line, “Puppies
are cute,” and then enclosed a picture of a
cute puppy. Is that something you would refer
for prosecution?

A.

No.

Q.

What if he wrote a letter saying[,] “I . . .
really love the Denver Broncos. Yay,
Denver Broncos. John Elway is the greatest,”
would you refer that for prosecution?

A.

Are you asking like after I told him no
or . . . ?

Q.

Yeah. At any time.

A.

At this point if he was [to] continue after
told no, yes.

App.17a
Q.

Okay. What if he wrote a letter, one letter
saying that he thinks the greatest city in
the world is Tulsa, Oklahoma, and he
writes for pages extolling the virtues of the
good people of Tulsa, Oklahoma. Would that
be something you would want to refer for
prosecution?

A.

Again, if he’s told to stop contacting [the
victim] and he wrote that letter to [the victim],
yes.

Q.

Would any of those above letters contain
any threats?

A.

The ones that you just talked about?

Q.

Yeah. My scenarios.

A.

No, those are not.

Q.

Okay. Do they contain anything that would
be obscene?

A.

No.

Defense counsel also asked the victim questions about
whether she would have been offended by letters
from Mr. Dugan about the same subjects—puppies,
the Denver Broncos, and Tulsa, Oklahoma. Each
time, she responded, “No.”
[¶27] Mr. Dugan’s argument that this line of
questioning shows he was prosecuted only for his
speech ignores that § 6-2-506 requires more than
proof that he made obscene statements. Although a
letter or letters about puppies, the Broncos, or Tulsa
would not have resulted in prosecution for criminal
stalking, it does not follow that the only attribute of
Mr. Dugan’s conduct which resulted in prosecution

App.18a
was his use of obscene statements. His course of conduct
(writing extensive and repeated letters) was an essential element of the crime as defined by § 6-2-506.
Investigator McNare referenced other elements of
§ 6-2-506 when she mentioned that warnings to cease
communication would be important to her decision
on whether to refer a matter for prosecution. The
State was also required to show Mr. Dugan knew or
should have known his conduct would cause a reasonable person to suffer substantial emotional distress
and the victim was, in fact, seriously alarmed. The
victim said communications from Mr. Dugan about
puppies, the Denver Broncos, and Tulsa would not
have caused her such distress. Given that the State
was required to prove all the elements of § 6-2-506,
Mr. Dugan was not prosecuted simply for making
obscene statements.
[¶28] In making his “as-applied” argument, Mr.
Dugan also relates his situation to Cohen v. California,
403 U.S. 15, 91 S.Ct. 1780, 29 L.Ed.2d 284 (1971).
Mr. Cohen was convicted under a California statute
for maliciously and willfully disturbing the peace or
quiet of a neighborhood or person by offensive conduct
for wearing a jacket in a state courthouse which bore
the words “F**K the Draft.” Id. at 16, 91 S.Ct. at 1784.
The United States Supreme Court overturned his
conviction, concluding the statute, as applied to Cohen,
was unconstitutional because it punished him for his
protected speech, not his conduct. “The only conduct
which the [prosecution] sought to punish is the fact
of communication. Thus, we deal here with a conviction resting solely upon speech[.]” Id. at 18, 91 S.Ct.
at 1784 (internal quotations and citations omitted).
The state could not, consistent with the First Amend-

App.19a
ment, make his simple public display of an expletive
a crime. Id. at 26, 91 S.Ct. at 1789.
[¶29] Mr. Dugan’s situation is obviously distinguishable from Cohen. The Supreme Court in Cohen
found it significant that the defendant’s statement
was not directed at a specific person. Cohen, 403 U.S.
at 20-21, 91 S.Ct. at 1785-86. That is not the case
here; Mr. Dugan directed his letters to the victim.
Unlike in the present case, the statute in Cohen did not
require repeated actions and there was no indication
the defendant engaged in a course of conduct. The
California statute also did not require proof that Cohen
knew or should have known his conduct would cause
substantial emotional distress to a reasonable person or that a person actually suffer serious alarm.
Furthermore, the idea expressed by Cohen was political
in nature, a singularly important type of speech protected by the First Amendment. Id. at 24-26, 91 S.Ct.
at 1787-89. Mr. Dugan’s statements had no political
value whatsoever.
[¶30] Mr. Dugan also argues § 6-2-506 is unconstitutional as applied to him because his statements
were not obscene under Wyo. Stat. Ann. § 6-4-301(a)(iii)
(LexisNexis 2019):
(a) As used in this article:
...
(iii) “Obscene” is material which the average
person would find:

(A) Applying contemporary community standards, taken as a whole, appeals to the
prurient interest;

App.20a

(B) Applying contemporary community standards, depicts or describes sexual conduct in a patently offensive way; and

(C) Taken as a whole, lacks serious literary,
artistic, political or scientific value.
[¶31] This definition applies to the crimes in
Title 6, Article 3 of the Wyoming Statutes which generally addresses the dissemination of obscene materials.
Section 6-2-506 does not incorporate the § 6-4-301
definition of obscene, nor does it otherwise define the
term. Under standard rules of statutory construction,
we are not at liberty to add words to a statute that
the legislature chose to omit. Wyodak Res. Dev.
Corp. v. Dep’t of Rev., 2017 WY 6, ¶ 31, 387 P.3d 725,
733 (Wyo. 2017) (citing MF v. State, 2013 WY 104,
¶ 11, 308 P.3d 854, 858 (Wyo. 2013)). When a statute
does not provide a technical definition of a word, the
ordinary definition of the word generally applies.
Cecil v. State, 2015 WY 158, ¶ 14, 364 P.3d 1086,
1090-91 (Wyo. 2015).
[¶32] Section 6-4-301(a)(iii) mirrors the United
States Supreme Court’s definition of obscene which
is applicable to statutes regulating pure speech. See,
e.g., Miller v. California, 413 U.S. 15, 24, 93 S.Ct.
2607, 2615, 37 L.Ed.2d 419 (1973); Roth v. United
States, 354 U.S. 476, 77 S.Ct. 1304, 1 L.Ed.2d 1498
(1957). In State v. Crelly, 313 N.W.2d 455 (S.D. 1981),
the South Dakota Supreme Court considered a statute
which prohibited calling “another person with intent
to terrorize, intimidate, threaten, harass, or annoy
such person by using any obscene or lewd language
or by suggesting any lewd or lascivious act(.)” Id. at
455. The South Dakota court firmly rejected an argu-

App.21a
ment that the definition of “obscene” from United
States Supreme Court cases like Miller should apply
to the harassment statute. Id. at 455-56. Crelly, 313
N.W.2d at 456 (quoting Baker v. State, 494 P.2d 68,
70-71 (Ariz. Ct. App. 1972)) (“It would be . . . inane to
interpret the word “obscene” in the context of the
[United States Supreme Court obscenity] standards
when dealing with obscene phone calls.”). Crelly held
that the ordinary meaning of obscene applied to South
Dakota’s obscene phone calls statute. Id. at 456. See
also, People v. Hernandez, 283 Cal. Rptr. 81, 85 (Cal.
Ct. App. 1991) (refusing to apply Miller definition of
obscene to telephone harassment statute); State v.
Kipf, 450 N.W.2d 397, 404-05 (Neb. 1990) (same). We
agree with this rationale.
[¶33] The punishment of obscenity under laws
that regulate pure speech is much different than the
punishment of harassing conduct which includes
obscene statements. The ordinary meaning of “obscene,”
i.e., “‘[e]xtremely offensive under contemporary community standards of morality and decency; grossly repugnant to the generally accepted notions of what is
appropriate,’” Dougherty, ¶ 12, 239 P.3d at 1181
(quoting Black’s Law Dictionary 1182 (9th ed. 2009)),
applies to § 6-2-506. The district court’s refusal to require proof that Mr. Dugan’s statements met the
definition of “obscene” under § 6-4-301 and the Miller
standard does not render § 6-2-506 unconstitutional
as applied, to him.
II.

Jury Instructions and Verdict Form

[¶34] Mr. Dugan claims the district court abused
its discretion by improperly instructing the jury on
his theory of defense and refusing his jury instruc-

App.22a
tion defining “obscene.” He also maintains the district
court erred by refusing to use his special verdict form
which would have required the jury to choose whether
Mr. Dugan’s letters contained obscene statements or
threats. In general,
[w]e review a district court’s decision regarding jury instructions for an abuse of discretion. The district courts are afforded substantial latitude to tailor jury instructions to the
facts of the case. So long as the jury instructions correctly state the law and adequately
cover the issues presented in the trial, reversible error will not be found.

Birch v. State, 2018 WY 73, ¶ 12, 421 P.3d 528, 533
(Wyo. 2018) (quotation marks and citations omitted).
However, “[t]he failure to give an instruction on the
law related to a theory of defense is a due process
issue, which this Court reviews de novo.” James v.
State, 2015 WY 83, ¶ 17, 357 P.3d 101, 105 (Wyo.
2015) (citing Nelson v. State, 2010 WY 159, ¶ 13, 245
P.3d 282, 285 (Wyo. 2010)).
A. Theory of Defense

[¶35] Mr. Dugan proposed the following theory
of defense instruction:
The defendant asserts that he is being criminally prosecuted due to the contents of the
letters that he wrote to [the victim], which is
an attempt to criminally sanction his speech.
Under the First Amendment to the United
States Constitution, the State may not punish
the defendant for the content of his speech
unless it can prove beyond a reasonable doubt

App.23a
that the speech falls under a previously
recognized exception to the First Amendment
of the United States Constitution. Those
exceptions are:
Incitement to Imminent Violence,
Libel,
Obscenity,
Child Pornography,
Fighting Words,
Furtherance of Another Crime, or
Copyright/Trademark.
To criminally sanction the defendant for
the contents of his letters, the State must
prove beyond a reasonable doubt that [the
d]efendant’s letters fit into one of the above
exceptions.
If you are unable to unanimously find that
the defendant’s letters fit into an exception
mandated by the First Amendment, then
you must acquit the defendant.
[¶36] The district court declined to give Mr.
Dugan’s proposed instruction because it misstated
the law. Although “[d]ue process requires the trial court
to give a correct instruction to the jury that details
the defendant’s theory of the case,” the instruction
must present a defense recognized by statute or case
law in this jurisdiction. James, ¶ 18, 357 P.3d at 105
(citation omitted).
[¶37] As we explained in Paragraph 20, footnote
4, certain categories of speech are outside the protection of the First Amendment, including threats,
criminal speech, fighting words, obscenity, child pornography, and commercial speech that is misleading

App.24a
or only concerned with illegal activity. Basic Free
Speech Analysis, 31 Santa Clara L. Rev. at 893-94.
Mr. Dugan’s proposed instruction stated the State
had to prove his speech fell within one of the listed
categories of unprotected speech to convict him of
criminal stalking. However, § 6-2-506 complies with
the First Amendment because it punishes conduct,
not a substantial amount of protected speech. The
district court correctly rejected Mr. Dugan’s proposed
instruction because it did not state a proper defense
to the stalking charge.
[¶38] Before we leave this issue, we want to
briefly comment on the theory of defense instruction
that was given by the district court:
INSTRUCTION NO. 15
The Defendant denies that his conduct or
letters constituted harassment. Therefore,
the Defendant asserts that he should not be
criminally prosecuted for Stalking because
he has First Amendment protection under
the Constitution.
[¶39] Some First Amendment questions are
factual in nature and should be submitted to the jury
for decision. See, e.g., United States v. Viefhaus, 168
F.3d 392, 397 (10th Cir. 1999) (questions as to whether
a statement is a true threat or political speech are
for the jury). However, legal questions regarding
whether a statute or prosecution under a statute is
constitutional under the First Amendment are
properly reserved to the court. Dennis v. United
States, 341 U.S. 494, 513, 71 S.Ct. 857, 869, 95 L.Ed.
1137 (1951) (Vinson, C.J. joined by Reed, Burton, and
Minton, JJ.). See also, Powell v. State, 12 P.3d 1187,

App.25a
1191 (Alaska Ct. App. 2000) (while the jury decides
factual issues implicating the First Amendment, the
court decides as a matter of law whether the First
Amendment protects the defendant from criminal
prosecution). This is a simple application of the
general rule that the jury resolves factual issues and
the court decides questions of law. Widdison v. State,
2018 WY 18, ¶ 21, 410 P.3d 1205, 1213 (Wyo. 2018);
Snow v. State, 2009 WY 117, ¶¶ 29-30, 216 P.3d 505,
514 (Wyo. 2009).
[¶40] As demonstrated in our discussion of the
constitutional issue, the application of the First Amendment in this case involves complex legal questions.
The district court should not have given Instruction
No. 15 as the theory of defense instruction because it
placed the jury in the difficult and improper position
of having to decide the legal issue of whether Mr.
Dugan’s actions were entitled to First Amendment
protection. However, Mr. Dugan’s only challenge to
the instruction is that it did not include information
about the categories of speech that are not protected
by the Constitution, which is not a proper defense to
the stalking charge. Consequently, we will not further
address the instruction given by the district court.

B. Definition of Obscene
[¶41] Mr. Dugan argues the district court abused
its discretion by refusing to give a jury instruction
defining “obscene” in accordance with Miller, 413
U.S. at 24, 93 S.Ct. at 2615-16 and § 6-4-301(a)(iii).
The district court denied Mr. Dugan’s requested instruction and decided no instruction defining the
term “obscene” was necessary because the ordinary
and usual meaning applied, citing Wyo. Stat. Ann.

App.26a
§ 8-1-103(a)(i) (LexisNexis 2019) (“The construction
of all statutes of this state shall be by the following
rules, unless that construction is plainly contrary to
the intent of the legislature: . . . Words and phrases
shall be taken in their ordinary and usual sense[.]”)
As we explained in our discussion of the constitutional issue, the definition of “obscene” for statutes that
punish pure speech does not apply to criminal stalking.
Instead, the word should be given its ordinary meaning.
Mr. Dugan does not argue that the district court
should have given an instruction defining obscene in
its ordinary sense. Furthermore, a trial court generally “is under no obligation to define a statutory term
unless the term carries a technical connotation different from its everyday meaning.” Ewing v. State,
2007 WY 78, ¶ 9, 157 P.3d 943, 945-46 (Wyo. 2007).
See also, Montez v. State, 2009 WY 17, ¶ 22, 201
P.3d 434, 441 (Wyo. 2009) (citing Schmidt v. State,
2001 WY 73, ¶ 24, 29 P.3d 76, 83 (Wyo. 2001)). The
district court did not abuse its discretion by refusing
to give the defense’s requested instruction on the
definition of obscene.

C. Special Verdict Form
[¶42] The general verdict form used by the district court directed the jury to decide whether Mr.
Dugan was guilty or not guilty of “[s]talking as
charged,” and it found him guilty. Mr. Dugan claims
the district court should have used his proposed
verdict form which included a special interrogatory:
COUNT I
We the jury, duly empaneled and sworn to try
the above entitled cause, do find that as to the first

App.27a
count of Stalking charged in the Information, the
Defendant, Lewis Dugan, is:
_________Guilty
_________Not Guilty
SPECIAL INTERROGATORY
Please answer 1(a) below if the jury is able to
unanimously agree to a verdict:
1(a) Did Lewis Dugan:
_______write letters that were obscene to
[the victim]?
_______write letters that threatened imminent
violence to be inflicted upon [the victim]?
_______neither write letters that were as a
whole obscene to [the victim], nor threatened
imminent violence to be inflicted upon [the
victim]?
[¶43] Mr. Dugan asserts the district court was
obligated under Tanner v. State, 2002 WY 170, 57
P.3d 1242 (Wyo. 2002), to give his special interrogatory
which instructed the jury to choose whether his
letters to the victim contained threats or obscene
statements. He argues further that, because the jury
did not choose between the two theories, the State
must show there was sufficient evidence of both
theories to uphold his conviction.
[¶44] Tanner was charged with burglary under
Wyo. Stat. Ann. § 6-3-301: “(a) A person is guilty of
burglary if, without authority, he enters or remains
in a building . . . with intent to commit larceny or a
felony therein.” Tanner, ¶ 7 n.3, 57 P.3d at 1244 n.3.

App.28a
Intent to commit larceny and intent to commit a
felony are different elements of burglary. Jordin v.
State, 2018 WY 64, ¶¶ 11-12, 419 P.3d 527, 531
(Wyo. 2018) (discussing Tanner, ¶¶ 9-14, 57 P.3d at
1244-47). The jury in Tanner was informed that the
burglary statute required the State to prove the
defendant entered the building with the intent to commit a felony or the crime of larceny, without being
asked to delineate which element it chose. Tanner,
¶ 9, 57 P.3d at 1245; Jordin, ¶ 11, 419 P.3d at 531.
Therefore, Tanner’s conviction could not be sustained
unless there was sufficient evidence of both elements.
Tanner, ¶ 13, 57 P.3d at 1246.
[¶45] “Since Tanner, this Court has made it clear
this rule is limited to situations where the jury is
presented with alternative elements” of a crime. Jordin,
¶ 12, 419 P.3d at 531 (emphasis in original). The rule
does not apply when a statute provides different means
of committing the same element. Id. For example, in
Miller v. State, 2006 WY 17, 127 P.3d 793 (Wyo. 2006),
the district court instructed the jury that the element
of “delivery” of a controlled substance could be proven
by evidence of an “actual, constructive, or attempted
transfer from one person to another of a controlled
substance.” Id., ¶ 23, 127 P.3d at 799. “Regardless of
which type of delivery occurred, the element of the
crime—‘delivery’—never changed, and thus the jury
was not presented with alternative elements upon
which the conviction could be based.” Jordin, ¶ 12,
419 P.3d at 531 (discussing Miller, ¶ 23, 127 P.3d at
799). Similarly, in Brown v. State, 2014 WY 104, ¶ 9,
332 P.3d 1168, 1172 (Wyo. 2014), the appellant argued
that, under the rationale of Tanner, the district court
should have required the jury to unanimously agree

App.29a
on an alternative within the statutory definition of
serious bodily injury, i.e., “miscarriage, severe disfigurement or protracted loss or impairment of the
function of any bodily member or organ,” to convict
him of aggravated assault and battery under Wyo.
Stat. Ann. §§ 6-2-502(a)(i) and 6-1-104(a)(x). Failing
that, Brown maintained the State had to demonstrate
that sufficient evidence existed to convict him on all
the alternatives. Id. We rejected his claim on both
fronts. Id., ¶ 12, 332 P.3d at 1172-73. The Tanner rule
did not apply because the alternatives were just different means of committing the same element—
serious bodily injury. Id.
[¶46] Under § 6-2-506(a)(ii), threats and lewd
or obscene statements are different means of committing a single element—harassment. Therefore, the
district court did not abuse its discretion by refusing
Mr. Dugan’s proposed special verdict form. Furthermore, the State is not required to show sufficient evidence of both threats and lewd or obscene statements.
Sufficient evidence of one of the alternatives is all that
is required.
III. Sufficiency of the Evidence
[¶47] Mr. Dugan asserts the trial evidence was
insufficient to establish he harassed the victim under
§ 6-2-506 because his writings contained neither
“threats” nor “lewd or obscene statements.”6 When
6 Mr. Dugan also presents a vague argument about the meaning
of the phrase “including but not limited to” in the statutory
definition of harass. i.e., “[h]arass” means to engage in a course
of conduct, including but not limited to verbal threats, written
threats, lewd or obscene statements or images, vandalism or nonconsensual physical contact . . . ” Section 6-2-506(a)(ii) (emphasis

App.30a
reviewing a claim that the evidence was insufficient
to support a jury’s verdict,
[w]e do not consider whether or not the evidence was sufficient to establish guilt beyond
a reasonable doubt[;] [instead, we consider]
whether or not the evidence could reasonably
support such a finding by the factfinder. We
will not reweigh the evidence nor will we reexamine the credibility of the witnesses. We
review the sufficiency of the evidence from
this perspective because we defer to the jury
as the fact-finder and assume [it] believed
only the evidence adverse to the defendant
since [it] found the defendant guilty beyond
a reasonable doubt.

Thompson v. State, 2018 WY 3, ¶ 14, 408 P.3d 756,
760 (Wyo. 2018) (quoting Mraz v. State, 2016 WY 85,
¶ 19, 378 P.3d 280, 286 (Wyo. 2016)) (other citations
omitted).
[T]his Court examines the evidence in the
light most favorable to the State. We accept
all evidence favorable to the State as true
and give the State’s evidence every favorable inference which can reasonably and
fairly be drawn from it. We also disregard
any evidence favorable to the appellant that
conflicts with the State’s evidence.

Id. (quoting Worley v. State, 2017 WY 3, ¶ 17, 386
P.3d 765, 771 (Wyo. 2017)) (other citations omitted).
added). However, he does not claim the district court erred by
including that language in the jury instructions or the jury
somehow improperly relied upon that phrase to convict him.

App.31a

[¶48] Mr. Dugan expends a great deal of effort
attempting to show his statements did not amount to
threats, but then just declares his letters were not
obscene under Miller, 413 U.S. at 24, 93 S.Ct. at
2615, and similar cases. We have already determined
the ordinary meaning of obscene, not the Miller
definition, applies to § 6-2-506. Given Mr. Dugan
fails to present any argument that his statements
were not obscene under the ordinary meaning of the
term, he has failed to establish there was insufficient
evidence for the jury to conclude he harassed the
victim by directing lewd or obscene statements at her.

[¶49] Even though it is unnecessary, we will
briefly address the sufficiency of the evidence showing
Mr. Dugan’s statements were obscene under the
ordinary meaning of that term. As we stated earlier,
the ordinary meaning of obscene is “‘[e]xtremely
offensive under contemporary community standards
of morality and decency; grossly repugnant to the
generally accepted notions of what is appropriate.’”
Dougherty, ¶ 12, 239 P.3d at 1181 (quoting Black’s
Law Dictionary 1182 (9th ed. 2009)). Mr. Dugan
wrote a virtual stranger asking about her favorite
sex positions and whether she was a “moaner” or
“screamer” while having sex. He described his penis
and told her he could make her have good orgasms.
He suggested dripping flavored oil on her “boobs”
and “cooter” so he could lick it off. He described his
fantasy about having sex with her after taking illegal
drugs. Viewing this evidence in the light most favorable
to the prosecution, the jury could have reasonably
found Mr. Dugan’s statements to the victim were
extremely offensive and grossly repugnant.

App.32a
IV. Admissibility of Evidence that Mr. Dugan Had
Been Warned Not to Send Unsolicited Letters

[¶50] Mr. Dugan claims the district court erred
by admitting evidence that he had been told to stop
sending unsolicited letters to the victim and others.
Mr. Dugan’s primary complaints concern the admission of selections from a recorded interview and the
testimony of Department of Corrections employee,
Shawn Hobson.
[¶51] Mr. Dugan objected to admission of the
evidence. “When an issue regarding the admissibility
of evidence is presented to the district court, we
review its decision for abuse of discretion.” Swett v.
State, 2018 WY 144, ¶ 11, 431 P.3d 1135, 1140 (Wyo.
2018) (citing Triplett v. State, 2017 WY 148, ¶ 23,
406 P.3d 1257, 1262 (Wyo. 2017)).
A trial court’s rulings on the admissibility
of evidence are entitled to considerable deference, and, as long as there exists a legitimate basis for the trial court’s ruling, that
ruling will not be disturbed on appeal. The
appellant bears the burden of showing an
abuse of discretion.

In re GAC, 2017 WY 65, ¶ 32, 396 P.3d 411,
419 (Wyo. 2017) (quoting Wise v. Ludlow,
2015 WY 43, ¶ 42, 346 P.3d 1, 12 (Wyo. 2015))
(other citations omitted).

Id.
[¶52] Mr. Dugan also claims his right to confront
witnesses under the Sixth Amendment to the United
States Constitution was violated when the district
court admitted the evidence. U.S. Const. Amend. 6

App.33a
(“In all criminal prosecutions, the accused shall enjoy
the right . . . to be confronted with the witnesses
against him[.]”). We review the constitutional issue
de novo. Kramer v. State, 2012 WY 69, ¶ 18, 277
P.3d 88, 93 (Wyo. 2012).
A. Recorded Interview
[¶53] Investigator McNare testified that she and
Investigative Sergeant Ben Peech interviewed Mr.
Dugan at the Wyoming State Penitentiary in Rawlins
on February 13, 2017. Parts of the recorded interview were admitted into evidence at trial as Exhibit
55. Neither party informs the Court as to the actual
statements contained in Exhibit 55. However, our
review of the exhibit reveals four snippets from the
interview. The first snippet:
[Investigator Peech]. So, when you were up
in Torrington, did the uh, one of the Department of Corrections people come and talk to
you?
[Mr. Dugan]. Uh, a couple.
Q.

What did they talk to you about, Louie?

A.

To stop writing letters.

Q.

Ok, stop writing letters to who?

A.

Whoever I’m writing letters to.
[...]

[Investigator McNare]: [Did] they tell you specifically?
[Investigator Peech]: They said stop writing to
[the victim]?

App.34a
A.

Yeah.

[Investigator Peech]: Have you written to [the
victim] after that?
A.

Yeah, I did.

Q.

How many times?

A.

Once.

Q.

Why Louie?

A.

I don’t know. Cause I was being dumb.

[Investigator McNare]: What about another letter
that she just got today?
A.

Uh, I don’t know. There was only one.

The second snippet:
[Officer McNare]: What do you expect us to do,
Louie, when people keep coming to us
saying that they are getting these letters
from you?
A.

I guess I’ll just stop.

Q.

But, you’ve been told, and the last time we
were here, we talked to you about that.
Lieutenant Smith in Torrington talked to
you about that.
[...]

The third snippet:
[Officer McNare]: And then, how about [the
victim]?
A.

Sent it to her work.

Q.

And, how many letters have you sent her?

App.35a
A.

Well, like a couple.

Q.

A couple, as in?

A.

I don’t know.

[Investigator Peech]: So, you were recently up in
Torrington, right?
A.

Yeah.

The fourth snippet:
[Investigator McNare]: Okay, urn, has [the victim]
asked you to —
A.

No.

Q.

— continue communications with her?

A.

No. [unintelligible].

After Exhibit 55 was played for the jury, Investigator
McNare testified Mr. Dugan was incarcerated at the
Wyoming Medium Correctional Institution in Torrington until February 1, 2017, when he was moved to
the Wyoming State Penitentiary. She reiterated that
staff at the Torrington facility told Mr. Dugan to stop
writing letters.
[¶54] Mr. Dugan claims that because the corrections officers mentioned in the questions in Exhibit
55 did not testify at trial, the questions included
inadmissible hearsay and violated his constitutional
right to confront the witnesses against him. Hearsay
generally is not admissible. W.R.E. 802. W.R.E. 801
(c) defines hearsay as “a statement, other than one
made by the declarant while testifying at the trial or
hearing, offered in evidence to prove the truth of the
matter asserted.” “A ‘statement’ is (1) an oral or
written assertion or (2) nonverbal conduct of a person,

App.36a
if it is intended by him as an assertion.” W.R.E. 801
(a). “Assertion” is not defined in the rules of evidence.
However, the definition of “statement” indicates there
has to be an intent by the declarant to assert. This is
consistent with the definition in Black’s Law Dictionary
143 (11th ed. 2019) which defines an “assertion” as
“a declaration or allegation” or “person’s speaking,
writing, acting, or failing to act with the intent of
expressing a fact or opinion.” (emphasis added). Questions generally “contain no assertion; they simply
seek answers.” Brown v. Commonwealth, 487 S.E.2d
248, 251 (Va. Ct. App. 1997). Furthermore, questions
typically are not offered for the truth of the matter
asserted, but as background and context for the defendant’s answers. See, e.g, United States v. Fernandez, 914
F.3d 1105, 1111 (7th Cir. 2019) (citing Estate of
Moreland v. Dieter, 395 F.3d 747, 753-54 (7th Cir.
2005)); United States v. Levy, 594 F.Supp.2d 427,
439-440 n.5 (D.N.Y. 2009). A question may, however,
be a statement under Rule 801 if it does not actually
seek information from the respondent but, instead,
contains an implied assertion to establish the truth
of the information contained in the question. Brown,
487 S.E.2d at 251.
[¶55] For the most part, the investigators’ questions sought information from Mr. Dugan and had no
significance without Mr. Dugan’s responses. Therefore,
the questions were not “statements” under Rule 801
(a) and were not “hearsay” because they were not
offered for the truth of the matter asserted under Rule
801(c). Mr. Dugan’s responses to the questions were
not hearsay because they were admissions of a partyopponent under W.R.E. 801(d)(2). The last question
in the second snippet is the only one that causes us

App.37a
any concern, largely because it does not include Mr.
Dugan’s response. However, the same information, i.e.,
that he had been told by personnel at the Torrington
facility not to write letters, was confirmed by Mr.
Dugan elsewhere in the interview, so there is no prejudice from the admission of the one arguably improper
statement. The same rationale applies to Investigator
McNare’s testimony about corrections officers telling
Mr. Dugan to stop writing letters. Regardless of
whether or not the investigator’s statements contained
hearsay, Mr. Dugan cannot show any prejudice from
the jury hearing information from Investigator McNare
that it already heard directly from him.
[¶56] The district court’s admission of the
recorded interview also did not violate Mr. Dugan’s
constitutional right to confront the witnesses against
him under U.S. Const. Amend. 6. In Crawford v.
Washington, 541 U.S. 36, 53-54, 124 S.Ct. 1354, 1365,
158 L.Ed.2d 177 (2004), the United States Supreme
Court stated the Confrontation Clause generally prohibits the admission of testimonial statements when
the declarant does not appear at trial for cross-examination by the defendant. The Confrontation Clause
does not, however, bar statements that are offered for
purposes other than the truth of the matter asserted.
Id., 541 U.S. at 59 n.9, 124 S.Ct. at 1369 n.9. See also,
Tennessee v. Street, 471 U.S. 409, 414, 105 S.Ct. 2078,
2082, 85 L.Ed.2d 425 (1985) (admission of a statement not offered for the truth of the matter asserted
did not raise any Confrontation Clause concerns).
[¶57] As we said, the information contained in
the interview questions posed to Mr. Dugan was not
offered for the truth of the matter asserted. Therefore,
Mr. Dugan’s right to confront the declarants was not

App.38a
violated by admission of the questions. The evidentiary value of the recorded interview was in Mr. Dugan’s
responses. In that sense, he was the witness against
himself, which does not implicate the Confrontation
Clause.
B. Shawn Hobson’s Testimony
[¶58] Shawn Hobson, a correctional captain at
the Wyoming State Penitentiary, testified at Mr.
Dugan’s trial. The prosecutor asked him if Mr. Dugan
had been reprimanded for writing letters while at
the penitentiary. Defense counsel objected to his
testimony as irrelevant under W.R.E. 401, unduly
prejudicial under W.R.E. 403, and violating a previous
order excluding, under W.R.E. 404(b), evidence of
previous instances when Mr. Dugan had sent letters
to unwilling recipients. His objection was apparently
overruled7 because Captain Hobson was allowed to
testify that, in 2016 and 2017, Mr. Dugan had been
told not to write letters to people outside the facility
and disciplined for violating that directive.
[¶59] On appeal, Mr. Dugan argues the district
court erred by admitting Captain Hobson’s testimony
without performing an analysis of whether the probative value of the evidence was substantially outweighed by the danger of unfair prejudice under Rule
403. The record indicates the district court did balance
the danger of unfair prejudice against the probative
value of the evidence showing that Mr. Dugan was
told on prior occasions not to write letters from prison.
The court found the evidence was probative of Mr.
7 It appears the district court ruled on the matter in an unrecorded
sidebar conference.

App.39a
Dugan’s intent and the danger of unfair prejudice
was slight. Mr. Dugan makes no argument that the
district court erred in its balancing. Mr. Dugan also
intimates that the district court misapplied Rule 404
(b) or failed to follow its earlier ruling on the 404(b)
evidence. However, he provides no cogent argument
to support his claim, so we will not consider it. Pier
v. State, 2019 WY 3, ¶ 26, 432 P.3d 890, 898 (Wyo.
2019) (citing Blevins v. State, 2017 WY 43, ¶ 22, 393
P.3d 1249, 1254 (Wyo. 2017) (refusing to consider
issue not supported by cogent argument)). The district
court did not abuse its discretion by allowing Captain
Hobson to testify about Mr. Dugan being told not to
write unwanted letters to people outside the prison
and being disciplined for violating that instruction.
CONCLUSION
[¶60] Mr. Dugan’s First Amendment right to
free speech was not violated when he was prosecuted
under Wyoming’s criminal stalking statute, § 6-2506, for writing obscene letters to the victim. Section
6-2-506 properly punishes harassing conduct and does
not reach a substantial amount of protected speech.
The ordinary meaning of obscene applies to § 6-2506, and Mr. Dugan was not entitled to an instruction
directing the jury to apply the definition of obscene
applicable to pure speech. The evidence was sufficient
to support the jury’s conclusion that the letters were
obscene under the ordinary meaning of that term.
[¶61] The district court also properly rejected
Mr. Dugan’s proposed instruction on his theory of
defense that he was being prosecuted in violation of
his First Amendment right to free speech. The proposed
instruction did not correctly state the law applicable

App.40a
to this case. The district court was not required to
have the jury delineate Mr. Dugan’s means of harassing
the victim, so it did not err by using a general verdict
form. Finally, the district court did not abuse its discretion or violate Mr. Dugan’s constitutional right to
confront the witnesses against him by allowing evidence
that he had previously been told not to send letters
to unwilling recipients.
[¶62] Affirmed.

App.41a
DISSENTING OPINION OF CHIEF JUSTICE
DAVIS JOINED BY JUSTICE FOX
[¶63] While I concur in the majority opinion’s
holding that the stalking statute is facially sound,
and its holding that no First Amendment theory of
defense instruction should be given in a case like this, I
disagree that Mr. Dugan’s First Amendment rights
were not implicated by the charges against him. Our
stalking statute restricts two types of speech based on
content: threats and obscene statements. To ensure
that Mr. Dugan was not convicted on the basis of protected speech, the jury should have been instructed on
what constitutes obscene speech outside the protection of the First Amendment. I believe the failure to
give such an instruction was reversible error, and I
therefore respectfully dissent.
[¶64] The first step in considering an as-applied
constitutional challenge to a statute is to determine
whether the law is content-based or content-neutral.
Reed v. Town of Gilbert, Ariz., ___ U.S. ___, 135 S.Ct.
2218, 2228, 192 L.Ed.2d 236 (2015). If the law is content-based, the next question is whether the law
restricts speech in a constitutionally permissible
way, either because it passes strict scrutiny or because
the speech that it restricts is not constitutionally protected. See Sable Commc’ns of California, Inc. v. F.C.C.,
492 U.S. 115, 126, 109 S.Ct. 2829, 2836, 106 L.Ed.2d
93 (1989) (regulation of sexual expression that is
indecent but not obscene subject to strict scrutiny);
see also State v. Nowacki, 111 A.3d 911, 928 (Conn.
Ct. App. 2015) (two-step process requires determination
of whether harassment prosecution was based on

App.42a
content of speech and then whether prosecution was
constitutionally permissible).
[¶65] Given this framework for evaluating an
as-applied First Amendment challenge, I will first
address the majority opinion’s content-neutrality determination and the reasons I view Wyoming’s stalking
statute as a content-based restriction on speech. I
will then turn to my next conclusion, which is that the
restriction is permissible because it restricts speech
that is not constitutionally protected. Last, I will
address the failure to instruct the jury on the definition of the term “obscene” and why I believe that was
reversible error.
A.

Wyo. Stat. Ann. § 6-2-506 as Content-Based
Restriction on Speech

[¶66] As the majority opinion points out, Wyoming’s stalking statute prohibits a course of conduct
directed at a specific person with the intent to harass.
Conduct that is considered harassing includes nonspeech conduct such as vandalism, nonconsensual
physical contact, following, and surveilling. Wyo. Stat.
Ann. § 6-2-506 (LexisNexis 2017). The law also, however, defines harassing conduct to include verbal or
written threats and obscene statements and images.
Wyo. Stat. Ann. § 6-2-506(a)(ii). Despite these express
restrictions on two categories of speech, the majority
concludes that the statute, and its application in this
case, has no First Amendment implications. I disagree.8
8 In Luplow, this Court stated that the stalking statute is contentneutral. Luplow v. State, 897 P.2d 463, 468 (Wyo. 1995). It did
so without analysis and in the context of addressing an
overbreadth claim, a claim for which such a determination was
not necessary. Under such circumstances, the statement is

App.43a
[¶67] “[A]s a general matter, the First Amendment means that government has no power to restrict
expression because of its message, its ideas, its subject matter, or its content.” United States v. Stevens,
559 U.S. 460, 468, 130 S.Ct. 1577, 1584, 176 L.Ed.2d
435 (2010) (quoting Ashcroft v. ACLU, 535 U.S. 564,
573, 122 S.Ct. 1700, 152 L.Ed.2d 771 (2002)). In other
words, the First Amendment generally precludes content-based laws, meaning “those that target speech
based on its communicative content.” Reed, ___ U.S.
at ___, 135 S.Ct. at 2226. A law is content-based “if it
require[s] ‘enforcement authorities’ to ‘examine the
content of the message that is conveyed to determine
whether’ a violation has occurred.” McCullen v.
Coakley, 573 U.S. 464, 479, 134 S.Ct. 2518, 2531, 189
L.Ed.2d 502 (2014) (quoting FCC v. League of Women
Voters of Cal., 468 U.S. 364, 383, 104 S.Ct. 3106, 82
L.Ed.2d 278 (1984)). A law is also content-based if it
is “concerned with undesirable effects that arise from
‘the direct impact of speech on its audience’ or ‘listeners’
reactions to speech.’” McCullen, 573 U.S. at 481, 134
S.Ct. at 2531-32 (quoting Boos v. Barry, 485 U.S.
312, 321, 108 S.Ct. 1157, 99 L.Ed.2d 333 (1988)); see
also Operation Save America v. City of Jackson, 2012
WY 51, ¶ 71, 275 P.3d 438, 459 (Wyo. 2012) (“A
restriction that seeks to protect or shield an audience
from disturbing or distressing aspects of speech is
content-based.”).
[¶68] Wyoming’s stalking statute restricts two
types of speech, one based on its threatening content
dictum and not binding. See In Interest of DJS-Y, 2017 WY 54,
¶ 9, 394 P.3d 467, 470 (Wyo. 2017) (statement in prior case not
essential to decision categorized as dictum that “lacks the force
of an adjudication”).

App.44a
and the other based on its obscene content. Plainly, in
the event of a stalking allegation based on threatening
or obscene speech, law enforcement will be required
to consider the content of the speech to determine if it
fits the alleged category. Indeed, the majority acknowledges as much at ¶ 25 when it explains that the
stalking statute required the State to prove that the
content of Mr. Dugan’s speech was obscene or threatening to obtain a conviction. Additionally, the statute
requires an intent to cause the victim substantial
emotional distress, meaning that it looks to the effect
of the speech on the person to whom it is directed. It
seems clear to me then that Wyoming’s stalking
statute is a content-based restriction on speech. See
State v. Shackelford, 825 S.E.2d 689, 699 (N.C. Ct.
App. 2019) (stalking statute content based because
determination that defendant knew or should have
known statements would cause a reasonable person to
suffer emotional distress cannot be made without reference to content); People v. Relerford, 104 N.E.3d 341,
350 (Ill. 2017) (stalking statute content based because
it looks to listener’s reaction and cannot be justified
without reference to content); State v. Moulton, 78
A.3d 55, 71 (Conn. 2013) (where jury must consider
caller’s speech to determine whether call was alarming
or harassing First Amendment is implicated).
[¶69] The majority opinion concludes otherwise,
holding that because the stalking statute requires a
course of conduct and specific intent to harass, it is
not a content-based restriction on speech. See supra
¶ 22. I again disagree. While course of conduct and
specific intent may insulate a stalking statute from
an overbreadth challenge, they are not the factors
that the Supreme Court uses or that this Court has

App.45a
relied on to determine content neutrality. McCullen,
573 U.S. at 479, 481, 134 S.Ct. at 2531-32; Operation
Save America, ¶ 71, 275 P.3d at 459. Nor do I read
the authorities on which the majority relies to support
such an approach.9
[¶70] The first case on which the majority relies
is People v. Kucharski, 987 N.E.2d 906, 914 (Ill. Ct.
App. 2013). Kucharski addressed the constitutionality of an Illinois harassment statute that prohibited
obscene electronic communications with an intent to
offend. Id. The defendant in that case acknowledged
that the term “obscene,” as used in the statute, referred
to an unprotected type of speech, but he argued that
because the statute carved out a subset of obscene
language, that being obscene language with the intent
to offend, the statute had created an unconstitutional
content-based restriction. Id. The Illinois court rejected
the argument.
9 In addition to citing the statute’s course of conduct and specific intent to harass as factors in its content neutrality holding,
the majority opinion states, “The fact that § 6-2-506 identifies
‘lewd or obscene statements’ in the definition of harass does not
make it a content-based regulation on speech rather than a
regulation of conduct without a significant impact on protected
speech.” See supra ¶ 22. To the extent the majority is suggesting that the First Amendment is not implicated if a law is
not a full ban on speech, I disagree. The Supreme Court has held:
It is of no moment that the statute does not impose a
complete prohibition. The distinction between laws
burdening and laws banning speech is but a matter
of degree. The Government’s content-based burdens
must satisfy the same rigorous scrutiny as its
content-based bans.

United States v. Playboy Entm’t Grp., 529 U.S. 803, 812, 120
S.Ct. 1878, 1886, 146 L.Ed.2d 865 (2000).

App.46a
In so arguing, the defendant relies on R.A.V.
v. City of St. Paul, Minnesota, 505 U.S. 377,
383-84, 112 S.Ct. 2538, 120 L.Ed.2d 305
(1992), in which the Supreme Court stated:
“[A]reas of speech can, consistently with
the First Amendment, be regulated
because of their constitutionally proscribable content (obscenity, defamation,
etc.)—not that they are categories of
speech entirely invisible to the Constitution, so that they may be made the
vehicles for content discrimination unrelated to their distinctively proscribable
content. Thus, the government may
proscribe libel; but it may not make the
further content discrimination of proscribing only libel critical of the government.” (Emphases in original and
omitted.)
Based on the foregoing, the defendant reasons
that, although it is constitutionally permissible to criminalize obscene speech, it is
not permissible to criminalize only obscene
speech that is intended to offend another
person.
We find the defendant’s argument and
reliance on R.A.V. unpersuasive. The R.A.V.
court went on to explain:
“The concurrences describe us as setting
forth a new First Amendment principle
that prohibition of constitutionally proscribable speech cannot be ‘underinclusiv[e],’ * * * [i.e., that] ‘a government

App.47a
must either proscribe all speech or no
speech at all’ * * * . That easy target is
of the concurrences’ own invention. In
our view, the First Amendment imposes
not an ‘underinclusiveness’ limitation
but a ‘content discrimination’ limitation
upon a State’s prohibition of proscribable
speech.” (Emphasis omitted.) Id. at 387,
112 S.Ct. 2538.
In the present case, criminalizing only obscene
communication that is made with “an intent
to offend” does not amount to content-based
discrimination but, rather, is an attempt to
regulate the conduct that accompanies the
proscribed speech. “Speech may not be proscribed because of the ideas it expresses, but
it may be restricted because of the manner
in which it is communicated or the action that
it entails.” Bergman v. District of Columbia,
986 A.2d 1208, 1220 (D.C. 2010) (citing
R.A.V., 505 U.S. at 385, 112 S.Ct. 2538). In
other words, speech may be restricted when
it “embodies a particular intolerable (and
socially unnecessary) mode of expressing
whatever idea the speaker wishes to convey.”
(Emphases in original and omitted.) R.A.V,
505 U.S. at 393, 112 S.Ct. 2538. Here, an
obscene electronic communication made with
“an intent to offend” is restricted by the
statute not because its content communicates
any particular idea; rather, it is restricted
because of the purpose for which it is
communicated. Accordingly, there is no content-based discrimination and the defend-

App.48a
ant’s constitutional argument necessarily
fails.

Kucharski, 987 N.E.2d at 913-14.
[¶71] I do not believe that Kucharski stands for
the proposition that an “intent to offend” requirement
shields a statute from a First Amendment challenge.
The court merely rejected the idea that criminalizing
the unprotected speech based on an intent to offend
somehow added a content-based qualifier that transformed a restriction on unprotected speech into one
based on protected content. Were the appellate court
intending otherwise, its holding would run counter to
Illinois precedent. The Illinois Supreme Court follows
the same United States Supreme Court approach I
cited above, and it in fact did so in finding that
state’s stalking statute to be content-based.
Of relevance here, the proscription against
“communicat[ions] to or about” a person that
negligently would cause a reasonable person to suffer emotional distress criminalizes
certain types of speech based on the impact
that the communication has on the recipient.
Under the relevant statutory language, communications that are pleasing to the recipient
due to their nature or substance are not
prohibited, but communications that the
speaker “knows or should know” are distressing due to their nature or substance
are prohibited. Therefore, it is clear that the
challenged statutory provision must be considered a content-based restriction because
it cannot be justified without reference to
the content of the prohibited communications. See Reed, 576 U.S. at, 135 S.Ct. at

App.49a
2227; see also Matal v. Tam, 582 U.S. ___,
___, 137 S.Ct. 1744, 1764-65, 198 L.Ed.2d
366 (2017) (plurality opinion) (holding that
the “disparagement clause,” which prohibits
federal registration of a trademark based on
its offensive content, violates the first amendment).

Relerford, 104 N.E.3d at 350 (emphasis added).
[¶72] The next two cases on which the majority
relies to support its content-neutrality conclusion are
Perkins v. Commonwealth, 402 S.E.2d 229 (Va. Ct.
App. 1991), and State v. Richards, 896 P.2d 357
(Idaho 1995). Both decisions addressed overbreadth
challenges to harassment statutes, and each court
held no more than that the challenged statutes’ course
of conduct and specific intent elements defeated the
overbreadth claim. Neither decision addressed content neutrality.
[¶73] The final case on which the majority relies
is State v. Dugan, 303 P.3d 755 (Mont. 2013). In that
case, the Montana Supreme Court held:
Montana’s Privacy in Communications statute
legitimately encompasses only those electronic
communications made with the purpose to
terrify, intimidate, threaten, harass, annoy, or
offend. Such communications can be proscribed without violating the Montana and
United States Constitutions.

Dugan, 303 P.3d at 772.
[¶74] The Montana court made this statement
at the conclusion of an overbreadth analysis. To the extent that its holding is that the specific-intent require-

App.50a
ment is a factor that will undermine an overbreadth
claim, I have no quarrel with that, and notably, the
decision does not discuss content neutrality or attempt
to link the question of content neutrality to the statement. Beyond that context, I do not believe the statement can be, relied on to support the broad proposition that statutory requirements of course of conduct
and specific intent preclude a First Amendment challenge. Such a proposition simply finds no support in
United States Supreme Court precedent.
[¶75] For example, in R.A.V., the petitioner
burned a cross in the yard of a black family and was
charged under a St. Paul, Minnesota ordinance that
provided:
Whoever places on public or private property
a symbol, object, appellation, characterization or graffiti, including, but not limited to,
a burning cross or Nazi swastika, which one
knows or has reasonable grounds to know
arouses anger, alarm or resentment in others
on the basis of race, color, creed, religion or
gender commits disorderly conduct and shall
be guilty of a misdemeanor.

R.A.V. v. City of St. Paul, Minn., 505 U.S. 377, 380,
112 S.Ct. 2538, 2541, 120 L.Ed.2d 305 (1992).
[¶76] The Court held that the ordinance violated
the First Amendment because it was a content-based
restriction on expression that could not survive strict
scrutiny. R.A.V., 505 U.S. at 396, 112 S.Ct. at 2550. I
cite this decision not for its constitutional analysis of
the ordinance, but because the Court was presented
with an ordinance that had elements of conduct and
intent, and those factors did not stop the Court from

App.51a
considering whether the restriction violated the First
Amendment.
[¶77] Federal cases considering challenges to the
federal stalking statute are also illustrative. The federal stalking statute does not expressly restrict speech,
and because of its focus on conduct, federal courts
have rejected overbreadth challenges to the statute.10

10 In United States v. Ackell, 907 F.3d 67, 72 (1st Cir. 2018)
(footnote omitted), the court quoted the statute and described it
as follows:
As is relevant here, § 2261A(2)(B) penalizes whoever:
with the intent to kill, injure, harass, intimidate, or place under surveillance with intent to
kill, injure, harass, or intimidate another person,
uses the mail, any interactive computer service
or electronic communication service or electronic
communication system of interstate commerce,
or any other facility of interstate or foreign commerce to engage in a course of conduct that . . .
causes, attempts to cause, or would be reasonably expected to cause substantial emotional
distress to [that] person [or an immediate family
member, spouse, or intimate partner of that
person.]
Hence, to properly secure a conviction under
§ 2261A(2)(B), the prosecution must prove that: (1)
the defendant had the requisite intent; (2) the
defendant “engage[d] in a course of conduct”; (3) the
defendant used a facility of interstate commerce; and
(4) the defendant’s “course of conduct” “cause[d],
attempt[ed] to cause, or would be reasonably expected
to cause substantial emotional distress.” A “course of
conduct” is “a pattern of conduct composed of 2 or
more acts, evidencing a continuity of purpose.” 18
U.S.C. § 2266(2).

App.52a

Ackell, 907 F.3d at 77; United States v. Gonzalez,
905 F.3d 165, 190 n.10 (3rd Cir. 2018); United States
v. Osinger, 753 F.3d 939, 944 (9th Cir. 2014); United
States v. Petrovic, 701 F.3d 849, 856 (8th Cir. 2012).
The same courts have also recognized, however, that
the federal statute may be enforced in an unconstitutional manner. For example, the Ackell court observed:
Ultimately—while acknowledging that
§ 2261A(2)(B) could have an unconstitutional application, and remaining cognizant of
the chilling-effect-related concerns inherent
in declining to invalidate a statute that can
be applied to violate the First Amendment—
we are unconvinced that we must administer the “strong medicine” of holding the
statute facially overbroad. See Williams,
553 U.S. at 293, 128 S.Ct. 1830 (quoting

L.A. Police Dep’t v. United Report Publ’g
Corp., 528 U.S. 32, 39, 120 S.Ct. 483, 145

L.Ed.2d 451 (1999)). The statute does not,
on its face, regulate protected speech, or
conduct that is necessarily intertwined with
speech or expression. Should situations arise
where the statute is applied to courses of
conduct that are sufficiently expressive to
implicate the First Amendment, we are confident that as-applied challenges will properly
safeguard the rights that the First Amendment enshrines.

Ackell, 907 F.3d at 77 (footnote omitted); see also
Osinger, 753 F.3d at 944; Petrovic, 701 F.3d at 856.
[¶78] These federal cases show that even where
a stalking law is expressly aimed only at conduct, the
potential exists for enforcement that may run afoul

App.53a
of the First Amendment. It thus seems untenable to
me that we would hold that Mr. Dugan’s as-applied
challenge to the Wyoming law must fail because of
our law’s course-of-conduct and intent requirements.
Wyoming’s stalking statute expressly restricts speech
based on its content, and in my view, we must take
the next step and determine whether its restrictions
are constitutionally permissible.
B.

Constitutionality of Wyo. Stat. Ann. § 6-2-506’s
Restrictions on Speech

[¶79] The stalking statute’s restrictions on speech
are content based and therefore subject to strict
scrutiny, meaning that to be found constitutional,
the State must prove that they are narrowly tailored
to promote a compelling government interest. Playboy
Entm’t Grp., 529 U.S. at 813, 120 S.Ct. at 1886. For
example, in Shackelford, a North Carolina appellate
court considered an as-applied challenge to a felony
stalking statute’ and concluded that prosecution of
the defendant was not the least restrictive means of
promoting the State’s interest.
Here, the State contends that the application of N.C. Gen. Stat. § 14-277.3A to Defendant’s Google Plus posts is sufficient to withstand strict scrutiny because (1) the prevention of stalking “before it escalates into more
harmful or lethal criminal behavior” is a compelling state interest; and (2) the statute is
the least restrictive means of accomplishing
this goal in that it “is limited to willful or
knowing conduct, directed at a specific person,
that would cause a reasonable person to suffer
fear or substantial emotional distress.” How-

App.54a
ever, even assuming arguendo that the
statute serves a compelling governmental
interest in preventing the escalation of
stalking into more dangerous behavior, we
are not persuaded that the application of
N.C. Gen. Stat. § 14-277.3A to Defendant’s
posts represented the least restrictive means
of accomplishing that goal.
Prior to Defendant’s indictments, Mary had
already sought and received a no-contact
order in district court that prohibited him
from approaching or contacting her. Given
the existence of a no-contact order against
Defendant, strict enforcement of the terms
of that order clearly represented a less
restrictive means by which the State could
have pursued its interest in preventing
Defendant from engaging in a criminal act
against her.

Shackelford, 825 S.E.2d at 700.
[¶80] On the other hand, a strict scrutiny analysis is not required if the speech at issue is not constitutionally protected. Stevens, 559 U.S. at 468-69, 130
S.Ct. at 1584. The categories of unprotected speech
are “well-defined and narrowly limited classes of
speech, the prevention and punishment of which have
never been thought to raise any Constitutional
problem.” Id. (quoting Chaplinsky v. New Hampshire,
315 U.S. 568, 571-72, 62 S.Ct. 766, 86 L.Ed. 1031
(1942)). Included among the categories of unprotected
speech are threats and obscene speech. Stevens, 559
U.S. at 468, 130 S.Ct. at 1584.

App.55a
[¶81] The Supreme Court has defined an unprotected threat to mean a “true threat.”
“True threats” encompass those statements
where the speaker means to communicate a
serious expression of an intent to commit an
act of unlawful violence to a particular individual or group of individuals. See Watts v.
United States, supra, at 708, 89 S.Ct. 1399
(“political hyberbole [sic]” is not a true threat);
R.A.V. v. City of St. Paul, 505 U.S., at 388,
112 S.Ct. 2538. The speaker need not actually intend to carry out the threat. Rather, a
prohibition on true threats “protect[s] individuals from the fear of violence” and “from
the disruption that fear engenders,” in addition to protecting people “from the possibility
that the threatened violence will occur.”
Ibid. Intimidation in the constitutionally
proscribable sense of the word is a type of
true threat, where a speaker directs a
threat to a person or group of persons with
the intent of placing the victim in fear of
bodily harm or death.

Virgina [sic] v. Black, 538 U.S. 343, 359-60, 123 S.Ct.
1536, 1548, 155 L.Ed.2d 535 (2003).
[¶82] With respect to obscene speech, which the
Supreme Court has also historically referred to as
“lewd and obscene” speech, Miller v. California, 413
U.S. 15, 20, 93 S.Ct. 2607, 2613, 37 L.Ed.2d 419
(1973) (quoting Chaplinsky, 315 U.S. at 571-72, 62
S.Ct. at 768-69), the term obscene is defined according
to a set of guidelines:

App.56a
The basic guidelines for the trier of fact
must be: (a) whether “the average person,
applying contemporary community standards”
would find that the work, taken as a whole,
appeals to the prurient interest, Kois v.
Wisconsin, supra, 408 U.S., at 230, 92 S.Ct.,
at 2246, quoting Roth v. United States, supra,
354 U.S., at 489, 77 S.Ct., at 1311; (b)
whether the work depicts or describes, in a
patently offensive way, sexual conduct specifically defined by the applicable state law;
and (c) whether the work, taken as a whole,
lacks serious literary, artistic, political, or
scientific value.

Miller, 413 U.S. at 24-25, 93 S.Ct. at 2614-15.
[¶83] The Court expanded on how part (b) of its
standard might be applied in practice with “a few
plain examples.”
(a) Patently offensive representations or descriptions of ultimate sexual acts, normal or perverted, actual or simulated.
(b) Patently offensive representation or descriptions of masturbation, excretory functions,
and lewd exhibition of the genitals.

Miller, 413 U.S. at 25, 93 S.Ct. at 2615.11
[¶84] I do not believe that it is necessary to
resort to a strict scrutiny analysis to resolve Mr.
Dugan’s as-applied challenge. In my view, the legis11 Wyoming’s statute defining the crime of promoting obscenity
incorporates the Miller guidelines and these examples to define
the term “obscene” for purposes of that statute. Wyo. Stat. Ann.
§ 6-4-301(a)(iii), (v) (LexisNexis 2019).

App.57a
lature intended to criminalize only speech that is not
constitutionally protected, and when it called out
verbal or written threats and obscene statements
and images as restricted speech under the statute, it
meant as those terms are defined to fall outside constitutional protections.
[¶85] I come to this conclusion through the application of our rules of statutory interpretation.
“When we interpret statutes, our goal is to
give effect to the intent of the legislature,
and we ‘attempt to determine the legislature’s
intent based primarily on the plain and
ordinary meaning of the words used in the
statute.’” Fugle v. Sublette County School
Dist. No. 9, 2015 WY 98, ¶ 8, 353 P.3d
732, 734 (Wyo. 2015) (quoting Krenning v.
Heart Mountain Irrigation Dist., 2009 WY
11, ¶ 9, 200 P.3d 774, 778 (Wyo. 2009)).
“Where legislative intent is discernible a court
should give effect to the ‘most likely, most
reasonable, interpretation of the statute, given
its design and purpose.’” Adekale v. State,
2015 WY 30, ¶ 12, 344 P.3d 761, 765 (Wyo.
2015) (quoting Rodriguez v. Casey, 2002 WY
111, ¶ 20, 50 P.3d 323, 329 (Wyo. 2002)).
We therefore construe each statutory
provision in pari materia, giving effect to
every word, clause, and sentence according to their arrangement and connection.
To ascertain the meaning of a given law,
we also consider all statutes relating to
the same subject or having the same
general purpose and strive to interpret
them harmoniously. We presume that

App.58a
the legislature has acted in a thoughtful
and rational manner with full knowledge
of existing law, and that it intended new
statutory provisions to be read in harmony with existing law and as part of an
overall and uniform system of jurisprudence. When the words used convey
a specific and obvious meaning, we need
not go farther and engage in statutory
construction.

PacifiCorp, Inc. v. Wyo. Dep’t of Revenue,
2017 WY 106, ¶ 10, 401 P.3d 905, 908-09
(Wyo. 2017) (quoting Nicodemus v. Lampert,
2014 WY 135, ¶ 13, 336 P.3d 671, 674 (Wyo.
2014)).

Sullivan v. State, 2019 WY 71, ¶ 10, 444 P.3d 1257,
1259-60 (Wyo. 2019) (quoting Wyo. Jet Center, LLC
v. Jackson Hole Airport Bd., 2019 WY 6, ¶ 12, 432
P.3d 910, 915 (Wyo. 2019)).
[¶86] As the majority opinion observes, when
Wyoming’s stalking statute was originally enacted,
the only type of speech it restricted based on content
was threatening speech. See supra ¶ 11 n.3. The
restriction on lewd or obscene statements was added
in 2007, but before that, this Court decided Luplow.
In Luplow, the Court observed that the statute had
been written to avoid infringing on constitutionally
protected conduct and that “[i]t is true it may inhibit
speech, but only in a constitutionally permissible way.”
Luplow, 897 P.2d at 467; see also McCone v. State, 866
P.2d 740, 745-46 (Wyo. 1993) (interpreting Wyoming’s
terroristic threat statute to apply to constitutionally
unprotected speech). This was the backdrop against
which the legislature added obscene speech as a second

App.59a
category of speech restricted based on its content. We
presume the legislature acts with full knowledge of
existing law, and with this Court signaling that
these types of statutes may restrict speech in only a
constitutionally permissible way, it is unsurprising
that the 2007 amendment added another category of
speech that had historically been treated as constitutionally unprotected. I believe the legislature intended
that the statute impose content-based restrictions
only on unprotected speech and that the restricted
categories of speech would be so defined.
[¶87] This interpretation of the stalking statute
is consistent with our presumption of constitutionality. See Sheesley v. State, 2019 WY 32, ¶ 3, 437
P.3d 830, 833 (Wyo. 2019) (“Statutes are presumed
constitutional, and we resolve any doubt in favor of
constitutionality.”). As a practical matter, it is also
consistent with the specific intent at which the
statute is aimed. As the Supreme Court has observed,
“most situations where the State has a justifiable
interest in regulating speech will fall within one or
more of the various established exceptions” to protected
speech. Cohen v. California, 403 U.S. 15, 24, 91 S.Ct.
1780, 1787, 29 L.Ed.2d 284 (1971). In other words, if
the speech is a “true threat,” or obscene as defined by
Miller, the intent to harass will likely be self-evident.12
12 The majority opts for a different definition of obscene,
drawing on the plain meaning we gave the term in Dougherty v.
State, 2010 WY 127, ¶ 12, 239 P.3d 1176, 1181 (quoting Black’s
Law Dictionary 1182 (9th ed. 2009)): “[e]xtremely offensive
under contemporary community standards of morality and
decency; grossly repugnant to the generally accepted notions of
what is appropriate.” Interestingly, the same Black’s Law
Dictionary definition goes on to provide the Miller definition for
purposes of First Amendment considerations. The Dougherty

App.60a
C.

Failure to Instruct the Jury on the Miller
Definition of Obscene

[¶88] We review a district court’s decision on
jury instructions for an abuse of discretion. Schmuck
v. State, 2017 WY 140, ¶ 45, 406 P.3d 286, 301 (Wyo.
2017).
District courts have wide latitude in instructing the jury and, as long as the instructions
correctly state the law and the entire charge
covers the relevant issue, reversible error
will not be found. An incorrect ruling on an
instruction must be prejudicial to constitute
reversible error. Because the purpose of jury
instructions is to provide guidance on the
applicable law, prejudice will result when the
instructions confuse or mislead the jury.

Id. (quoting Hurley v. State, 2017 WY 95, ¶ 8, 401
P.3d 827, 830 (Wyo. 2017)).
[¶89] We have also said:

court had no need to incorporate that part of the definition into
its analysis because the case before it did not involve speech or
expression and concerned only a charge relating to sexual
conduct in the presence of a minor. For First Amendment purposes, I believe the Dougherty definition falls short of being sufficiently protective. See Ashcroft v. ACLU, 535 U.S. 564, 574, 122
S.Ct. 1700, 1707, 152 L.Ed.2d 771 (2002) (noting the Court’s
multi-year struggle to define obscenity in a manner that did not
impose impermissible burden on protected speech); Reno v.
ACLU, 521 U.S. 844, 874, 117 S.Ct. 2329, 2346, 138 L.Ed.2d
874 (1997) (quoting Sable, 492 U.S., at 126, 109 S.Ct., at 2836)
(“In evaluating the free speech rights of adults, we have made it
perfectly clear that ‘[s]exual expression which is indecent but not
obscene is protected by the First Amendment.’”).

App.61a
The purpose of jury instructions is to “provide
the jury with a foundational legal understanding to enable a reasoned application of the
facts to the law.” Walker v. State, 2013 WY
58, ¶ 31, 302 P.3d 182, 191 (Wyo.2013). In
order to support a reliable verdict, it is crucial
that the trial court correctly state the law
and adequately cover the relevant issues.
Id. Ultimately, the test of adequate jury instructions is “whether the instructions leave
no doubt as to the circumstances under
which the crime can be found to have been
committed.” Id. (quoting Burnett v. State,
2011 WY 169, ¶ 14, 267 P.3d 1083, 1087
(Wyo.2011)).

Wilkerson v. State, 2014 WY 136, ¶ 25, 336 P.3d
1188, 1199 (Wyo. 2014).
[¶90] In Miller, the Supreme Court recognized
that a jury would likely be making the determination
of whether restricted speech was obscene, and it
noted the need to provide it guidance in performing
that function.
When triers of fact are asked to decide
whether “the average person, applying contemporary community standards” would consider certain materials “prurient,” it would
be unrealistic to require that the answer be
based on some abstract formulation. The
adversary system, with lay jurors as the
usual ultimate factfinders in criminal prosecutions, has historically permitted triers of
fact to draw on the standards of their community, guided always by limiting instructions on the law.

App.62a

Miller, 413 U.S. at 30, 93 S.Ct. at 2618 (emphasis
added); see also Jenkins v. Georgia, 418 U.S. 153, 160,
94 S.Ct. 2750, 2755, 41 L.Ed.2d 642 (1974) (“Even
though questions of appeal to the ‘prurient interest’
or of patent offensiveness are ‘essentially questions
of fact,’ it would be a serious misreading of Miller to
conclude that juries have unbridled discretion in
determining what is ‘patently offensive.’”).
[¶91] The Miller definition of obscene is protective of First Amendment rights and is not the type of
intuitive definition we can legitimately expect the
jury to bring to its fact-finding task without guidance.
Absent a proper instruction, the jury is left to apply
its own personal views of what may constitute obscene
writings, and in a close case, I do not believe that we
can be ensured of a reliable verdict that does not convict
on the basis of protected speech. As the Connecticut
Supreme Court observed:
We therefore agree with the state that § 53a183 (a) proscribes harassing and alarming
speech as well as conduct. We further conclude that, in order to ensure that a prosecution under that provision does not run afoul of
the first amendment, the court must instruct
the jury on the difference between protected
and unprotected speech whenever the state
relies on the content of a communication as
substantive evidence of a violation of § 53a183 (a).

State v. Moulton, 78 A.3d 55, 71-72 (Conn. 2013)
(footnote omitted); see also Commonwealth v. Bigelow,
59 N.E.3d 1105, 1119 (Mass. 2016) (“[T]he failure to
instruct the jury that where the complaint is based on
incidents of pure speech, they must find the defendant’s

App.63a
challenged speech constituted a true threat—and
therefore was constitutionally unprotected speech—
created a substantial risk of a miscarriage of justice.”);
Barson v. Commonwealth, 726 S.E.2d 292, 296 (Va.
2012) (legislature intended Miller definition to apply
to term “obscene” in harassment statute, and it was
therefore reversible error to instruct jury with dictionary definition); State v. Schaler, 236 P.3d 858, 860
(Wash. 2010) (en banc) (harassment statute must be
read to proscribe only true threats, and jury must be
so instructed); State v. Perkins, 626 N.W.2d 762, 773
(Wis. 2001) (“The danger in this case is that the instruction gave the jury no definition of the essential
element of a ‘threat’ and that the jury may have used
the common definition of ‘threat,’ thereby violating
the defendant’s constitutional right to freedom of
speech.”).
[¶92] The evidence on the obscenity of Mr.
Dugan’s letters was far from overwhelming. Over the
course of a couple of weeks, he wrote the victim ten
letters, with the first four arriving in a single mailing.
The letters totaled thirty-eight pages and contained
a handful of sexual comments and requests scattered
throughout. I believe that in this case there is every
chance that the jury convicted Mr. Dugan on the basis
that his writings were merely indecent. See Sable,
492 U.S. at 126, 109 S.Ct. at 2836 (“Sexual expression
which is indecent but not obscene is protected by the
First Amendment”). At the very least a fair probability
exists that the verdict would have been different had
the jury been instructed to consider the writings as
whole and according to the Miller guidelines. I would

App.64a
therefore reverse Mr. Dugan’s conviction and remand
for a new trial.13
13 I believe that there is very little chance that the jury convicted Mr. Dugan on the basis that his letters were threatening,
which probably accounts for the State’s decision to argue only
the evidence on obscenity in response to Mr. Dugan’s sufficiency
of the evidence challenge. The letters simply contained no threats,
as the victim’s testimony confirmed.
Q.

So the worst thing that Mr. Dugan did was ask you
for a relationship?

A.

And he said he would come visit me at my house.

Q.

Well, did he ever say he was going to come visit you
at your house whether you liked it or not?

A.

No.

Q.

Okay. And, in fact, in his request for a relationship,
he often would, you know, practically beg, wouldn’t
he? Like say please, please, please a lot and—

A.

I don’t remember the exact wording, but yes, I
suppose that’s—

Q.

The begging is kind of pathetic; right?

A.

Yes.
****

Q.

Okay. While you were offended by the sexual content
in the letter, did Lewis at any point in the letter specifically state he was going to do something physically to you against your will?

A.

No.

Q.

Okay. Did Lewis ever specifically make threats to
physically harm you?

A.

No.

Q.

Okay. Lewis ever make specific threats that he was
going to have sex with you against your will?

App.65a

A.

No.

Q.

Did he ever make a threat that he was going to make
you his girlfriend whether you liked it or not?

A.

No.
****

Q.

And again, he pretty much—was pretty much
begging, regarding all of his requests to visit you at
your house, to have a relationship with you? He pretty
much adopted a begging tone. Would that be fair to
say?

A.

Yes.

While I do not discount the alarm that may be felt by the recipient of multiple unwanted communications, such alarm is not
the type of threat that falls outside First Amendment protections. I also do not intend to suggest that Mr. Dugan has a right
to send unwanted communications to the victim. The stalking
statute criminalizes speech and has constitutional implications.
A victim may nonetheless obtain a protection order, and willful
violation of such an order may be punished criminally Wyo.
Stat. Ann. §§ 7-3-508, 509 (setting forth the procedure for obtaining a civil order of protection), and § 7-3-510(c) (willful violation
of a temporary or permanent order of protection punishable by
$750 fine and imprisonment up to six months). As the Supreme
Court has observed:
The unwilling listener’s interest in avoiding unwanted
communication has been repeatedly identified in our
cases. It is an aspect of the broader “right to be let
alone” that one of our wisest Justices characterized
as “the most comprehensive of rights and the right
most valued by civilized men.” Olmstead v. United
States, 277 U.S. 438, 478, 48 S.Ct. 564, 72 L.Ed. 944
(1928) (Brandeis, J., dissenting). . . .
“How far may men go in persuasion and communication and still not violate the right of
those whom they would influence? In going to
and from work, men have a right to as free a
passage without obstruction as the streets afford,

App.66a

consistent with the right of others to enjoy the
same privilege. We are a social people and the
accosting by one of another in an inoffensive
way and an offer by one to communicate and
discuss information with a view to influencing
the other’s action are not regarded as aggression or a violation of that other’s rights. If, however, the offer is declined, as it may rightfully
be, then persistence, importunity, following and
dogging become unjustifiable annoyance and
obstruction which is likely soon to savor of
intimidation. From all of this the person sought
to be influenced has a right to be free, and his
employer has a right to have him free.” American Steel Foundries v. Tri-City Central Trades
Council, 257 U.S. 184, 204, 42 S.Ct. 72, 66
L.Ed. 189 (1921).
We have since recognized that the “right to persuade”
discussed in that case is protected by the First
Amendment, Thornhill v. Alabama, 310 U.S. 88, 60
S.Ct. 736, 84 L.Ed. 1093 (1940), as well as by federal
statutes. Yet we have continued to maintain that “no
one has a right to press even ‘good’ ideas on an unwilling recipient.” Rowan, 397 U.S., at 738, 90 S.Ct.
1484. None of our decisions has minimized the enduring
importance of “a right to be free” from persistent
“importunity, following and dogging” after an offer to
communicate has been declined. While the freedom
to communicate is substantial, “the right of every
person ‘to be let alone’ must be placed in the scales
with the right of others to communicate.” Id., at 736,
90 S.Ct. 1484.

Hill v. Colorado, 530 U.S. 703, 716-18, 120 S.Ct. 2480, 2489-90,
147 L.Ed.2d 597 (2000) (footnote omitted).

App.67a
JUDGMENT AND SENTENCE ORDER OF THE
DISTRICT COURT OF THE STATE OF WYOMING,
CONVERSE COUNTY
(OCTOBER 22, 2018)
IN THE DISTRICT COURT OF THE STATE OF
WYOMING WITHIN AND FOR THE EIGHTH
JUDICIAL DISTRICT CONVERSE COUNTY
________________________
THE STATE OF WYOMING,

Plaintiff,
v.
LEWIS A. DUGAN,
D.O.B.: 1975, SSN: 0693,

Defendant.
________________________
Criminal Action No. 4884
Before: F. Scott PEASLEY, District Court Judge.
JUDGMENT AND SENTENCE
On the 15th day of October, 2018, this Court held
a Sentencing Hearing in the above captioned case.
Defendant was present with his attorney, Jonathan
Foreman, Senior Assistant Public Defender. The State
of Wyoming was represented by Joseph L. Russell,
Chief Deputy Converse County Attorney. The Court
heard from all parties, and being fully informed, finds
as follows:

App.68a
(1) Defendant found GUILTY by a jury of his
peers, of Stalking, in violation of 6-2-506(b) and (e)(i)
on March 21, 2018.
(2) Defendant was competent for trial.
(3) Defendant was represented by a competent
attorney. Defendant was fully satisfied by the representation of his attorney, Jonathan Foreman.
(4) Defendant was told the consequences of a
plea, as required by Wyoming Rules of Criminal Procedure 11, and understood those warnings.
(5) The Division of Field Services of the Wyoming
Department of Corrections prepared a satisfactory
Presentence Investigation Report (PSI). This PSI was
presented to the Court and counsel, ten days prior to
sentencing, and Defendant waived his ten days. The
Court has considered the recommendations and findings of the PSI. Defendant had adequate time to read
and discuss the PSI with their attorney. Defendant
and Defendant’s attorney have had an opportunity to
comment on the report, present evidence and testimony, and make sentencing arguments to the Court.
(6) Defendant’s constitutional rights were
reviewed. Defendant was informed of the ramifications on firearms rights under Wyoming Statute 7-11507(a)(i)(ii). Defendant was informed of the right to
appeal a conviction to the Wyoming Supreme Court.
(7) The Court has considered whether probation
is appropriate in this case.
(8) Defendant has been in prison prior to sentencing.

App.69a
(9) Defendant is deemed a Qualified Offender
under the Addicted Offender Accountability Act, W.
S. 7-13-1301 through 7-13-1304.
(10) Defendant is to have NO contact with
Denise Garwick, the victim in this case.
(11) No good reason exists for not imposing
Defendant’s sentence and punishment at this time.
THE COURT SHALL NOW ORDER ITS JUDGMENT AND SENTENCE. You, LEWIS A. DUGAN, are
found GUILTY of Stalking, in violation of Section 6-2506(b) and (e)(i), Wyoming Statutes, as amended, being
a Felony. Therefore, the Court orders the following:
(A) You are assessed One Hundred Fifty and
No/100 ($150.00) Dollars for the Wyoming
Victims Compensation Fund, Twenty Five
and No/100 ($25.00) Dollars court automation
fee, Ten and No/100 ($10.00) Dollars for
Indigent Civil Legal Services fee, Seventy
Five and No/100 ($75.00) Dollars ASI fee,
and Three Thousand and No/100 ($3,000.00)
Dollars for Public Defender fees. However,
all fees are waived. All payments will be
made through the Clerk of District Court.
(B) You are sentenced into the custody of the
Wyoming Department of Corrections, for
placement in an appropriate institution as
determined by the Department, for a period
of not less than four (4) years, but not more
than seven (7) years, concurrent with Converse County District Court Case #4434, with
no credit for presentence confinement. You
have the right to appeal your sentence. You
can appeal this sentence by filing a notice of

App.70a
appeal with the Clerk of the District Court
within thirty (30) days from the date of your
sentencing hearing. If you cannot afford an
attorney to represent you in your appeal,
you can apply for a court-appointed attorney and one may be appointed for you.
IT IS FURTHER ORDERED that any bond
posted in this case will be returned to the party posting the same.
IT IS FURTHER ORDERED that the appointment
of the Public Defender’s office ends upon the issuance
of this order. The Public Defender’s office no longer
represents Defendant or has any further responsibility in this matter.
DATED THIS 22 day of October, 2018.
BY THE COURT:
/s/ F. Scott Peasley
District Court Judge
APPROVED AS TO FORM:
/s/ Jonathan Foreman
Attorney for Defendant

App.71a
MITTIMUS ORDER OF THE DISTRICT COURT
OF THE STATE OF WYOMING,
CONVERSE COUNTY
(OCTOBER 22, 2018)
IN THE DISTRICT COURT OF THE STATE OF
WYOMING WITHIN AND FOR THE EIGHTH
JUDICIAL DISTRICT CONVERSE COUNTY
________________________
THE STATE OF WYOMING,

Plaintiff,
v.
LEWIS A. DUGAN,

Defendant.
________________________
Criminal Action No. 4884
Before: F. Scott PEASLEY, District Court Judge.
MITTIMUS
TO: THE SHERIFF OF CONVERSE COUNTY, WYOMING, AND THE WARDEN AND OFFICERS
IN CHARGE OF THE STATE PENAL INSTITUTION DESIGNATED BY THE WYOMING
STATE DEPARTMENT OF CORRECTIONS,
GREETINGS:
WHEREAS, LEWIS A. DUGAN has been duly
convicted in the District Court of the Eighth Judicial
District in and for Converse County, Wyoming, of the

App.72a
crime of Stalking, in violation of Section 6-2-506(b) and
(e)(i), Wyoming Statutes, as amended, being a Felony;
and Sentence having been pronounced against him
on October 15, 2018, that he be punished by imprisonment in a penal institution as designated by the
Wyoming Department of Corrections, for a term of
not less than four (4) years, nor more than seven (7)
years, concurrent with Converse County District Court
Case #4434, with no credit for time already served.
NOW THIS IS TO COMMAND YOU, the said
Sheriff of Converse County, Wyoming, to take and keep
at your County Jail and safely deliver the said LEWIS
A. DUGAN into the custody of the said Warden, or
other Officer of the penal institution as designated
by the Wyoming Department of Corrections.
AND THIS IS TO COMMAND YOU, the said
Warden and other Officers in charge of said penal
institution, to receive from the said Sheriff, LEWIS
A. DUGAN, convicted and sentenced as aforesaid, and
convey LEWIS A. DUGAN, at the expense of the
State, to the designated penal institution and there
keep him imprisoned at the expense of the State of
Wyoming, for a term of not less than four (4) years,
nor more than seven (7) years, concurrent with Converse County District Court Case #4434, and with no
credit for time already served off his minimum and
maximum sentence, concurrent on both counts, to be
served as set forth above and as recited in the
certified copy of the JUDGMENT AND SENTENCE
attached hereto and incorporated herein by this
reference.
AND THESE PRESENTS shall be your proper
authority to carry out the terms of this Judgment
And Sentence and of this Mittimus.

App.73a
WITNESS, the F. Scott Peasley, Judge of the
District Court this 22 day of Oct, 2018.
/s/ F. Scott Peasley
District Court Judge
Attest my hand and Seal of Court, this 23rd day
of October, 2018.
Pam McCullough
Clerk of the District Court
BY: /s/ Deborah Kornegay
Deputy Clerk

App.74a
ORDER OF THE DISTRICT COURT
OF THE STATE OF WYOMING,
CONVERSE COUNTY,
FINDING GUILTY AT JURY TRIAL
(MARCH 23, 2018)
IN THE DISTRICT COURT OF THE STATE OF
WYOMING WITHIN AND FOR THE EIGHTH
JUDICIAL DISTRICT CONVERSE COUNTY
________________________
THE STATE OF WYOMING,

Plaintiff,
v.
LEWIS A. DUGAN,

Defendant.
________________________
Criminal Action No. 4884
Before: F. Scott PEASLEY, District Court Judge.
ORDER FINDING GUILTY AT JURY TRIAL
The above captioned matter having come before
the Court on the 21st day of March, 2018, for a Jury
Trial on a charge of Stalking, in violation of Section
6-2-506(b) and (e)(i), Wyoming Statutes, as amended;
the State of Wyoming appearing by and through Joseph
L. Russell, Chief Deputy Converse County Attorney,
and the Defendant appearing in person, with his
attorney, Jonathan Foreman, Senior Assistant Public

App.75a
Defender; and the Jury having heard and considered
the testimony of the witnesses, arguments of counsel,
the Jury being fully advised in the premises did
FIND the Defendant Guilty of Stalking. The Court
does find that there is sufficient evidence to find the
Defendant GUILTY.
IT IS THEREFORE ORDERED that LEWIS A.
DUGAN is hereby found GUILTY of Stalking, in violation of Section 6-2-506(b) and (e)(i), Wyoming Statutes,
as amended; and that a Presentence Investigation
Report be conducted by the Division of Field Services of
the Wyoming Department of Corrections and that said
report be submitted to the Court and counsel ten (10)
days prior to sentencing in this matter, for consideration
at sentencing. The Defendant may be returned to
the custody of the Department of Corrections until
sentencing, at which time, he will be returned to the
Converse County Detention Facility in Douglas,
Wyoming.
DATED THIS day 23 day of March, 2018.
BY THE COURT:
/s/ F. Scott Peasley
District Court Judge

App.76a
JURY VERDICT IN THE DISTRICT COURT
OF THE STATE OF WYOMING,
CONVERSE COUNTY
(MARCH 21, 2018)
IN THE DISTRICT COURT OF THE STATE OF
WYOMING WITHIN AND FOR THE EIGHTH
JUDICIAL DISTRICT CONVERSE COUNTY
________________________
THE STATE OF WYOMING,

Plaintiff,
v.
LEWIS A. DUGAN,

Defendant.
________________________
CR-4884
VERDICT
1. We the jury, duly empanelled and sworn to try
the above entitled cause, do find that as to the crime
of Stalking as charged, the Defendant, Lewis Alan
Dugan, is:
● Guilty
Dated this 21st day of March, 2018.
/s/ { name omitted }
Presiding Juror

App.77a
JURY TRIAL TRANSCRIPT,
HEARING ON MOTION FOR ACQUITTAL
(MARCH 21, 2018)
IN THE DISTRICT COURT
EIGHTH JUDICIAL DISTRICT
STATE OF WYOMING, COUNTY OF CONVERSE
________________________
THE STATE OF WYOMING,

Plaintiff,
v.
LEWIS ALAN DUGAN,

Defendant.
________________________
Docket No. 4884
Before: The Honorable F. Scott PEASLEY,
Eighth Judicial District Court Judge.

[March 21, 2018 Transcript, Volume II p. 205]
THE COURT: Okay.
MR. FOREMAN [Counsel for Defendant]: — even
though we rested yesterday, too.
THE COURT: And just so the record is clear, I was
affording you the opportunity to present your
client if he chose to testify.
MR. FOREMAN: I understand.

App.78a
THE COURT: Okay. With that, you’ve rested. Now
you have a motion for judgment of acquittal.
Mr. Foreman, I’ll hear from you on that.
MR. FOREMAN: Thank you, Your Honor.
I filed a written motion for judgment of acquittal
yesterday at the close of the evidence. This would
be in three parts. There’s two arguments that
are related to the First Amendment and one
that’s related to the statute itself.
The first argument is that the First Amendment
does, in fact, apply to these letters. And I think
it’s on very sound ground that we are in a situation—By the way, if I may before I proceed, I
wanted to make sure the first two parts of this
motion are based upon the fact that this prosecution is unconstitutional with the theory that
the state has presented as applied to Mr. Dugan
and the facts of this case. I looked at Rule 12(b)
when I went back to my office yesterday, and
that’s what I thought. This motion is not out of
time—These parts of the motion would not be
out of time because of an issue of ripeness; in
other words, this is the proper time to bring an
as-applied challenge as opposed to facial challenge. I agree if I would have been bringing a
facial challenge to the unconstitutionality of the
entire statute, which by the way the Wyoming
Supreme Court has already rejected anyway in
the mid ’90s. But if I was bringing that, then that
would be a 12(b) motion and that should have been
brought at the deadline.
But an as-applied challenge raises questions of
ripeness. And an as-applied challenge is never

App.79a
ripe until the Court has sufficient facts before it
to make a ruling on the individual merits of the
case, which is why it’s being brought in the
middle of the trial because I gave the state the
opportunity to put on its evidence/present its
theory to the jury so that the Court would be
able to then determine whether, as applied, this
statute is being applied unconstitutionally to my
client, and I believe it is.
But the first issue is whether the First Amendment applies to this prosecution, and it does.
And it does because this is a prosecution that’s
based upon the content of Mr. Dugan’s letters.
And we established that yesterday. I asked a
series of questions. I even conceded they sounded
like dumb questions, but a lot of times attorneys
are compelled to ask seemingly dumb questions
in order to establish an obvious fact that could
be argued later. And in this case I asked questions
about puppies, the city of Tulsa, Oklahoma, and
the Denver Broncos to show that there are certain
letters that had he, Mr. Dugan, written them
would not have offended Denise Garwick. And,
sure enough, Ms. Garwick said she would not
have found those letters offensive. So this is a—
The purpose of that was just to establish that
this is a prosecution based upon the content of
the letters; that had Mr. Dugan wrote different
letters he would not have been prosecuted.
So I—There’s plenty of case law on this point, but
really the first eight paragraphs of my motion
concern that issue. And the case law is pretty
much directly on point that even if it wasn’t just
directly speech based, the Courts have held that

App.80a
statutes such as a breach of peace statute can be
compelled to—or can sweep in content even where
the statute ostensibly regulates conduct.
So in this circumstance, this is not a conduct based
prosecution. This isn’t Mr. Dugan engaging in
conduct. This is they’re prosecuting Mr. Dugan
for what he said, so that’s what brings it under
the umbrella of the First Amendment.
The next section of the brief discusses Relerford.
Relerford is a case that came out in November.
It’s an Illinois Supreme Court case. They basically
tossed the—they only tossed Subsection A, but
that’s the meat of the Illinois stalking statute.
And they threw that out on the basis that it was
overbroad. It was a facial challenge; but they held
that due to the situation in which the person, Mr.
Relerford—And, actually, if you read the Relerford
case, his conduct is much, much worse, but—than
Mr. Dugan’s. Because it did include some conduct
and it also included his Facebook posts. If you
read—Mr. Relerford’s Facebook posts more go to
the cyberstalking, which the Illinois Supreme
Court also threw out, portion of the statute.
I don’t address cyberstalking in my motion because
this isn’t a cyberstalking case. Mr. Dugan isn’t
making posts on the internet. But they threw
out both the regular stalking and the cyberstalking
statute in Illinois, which is worded very similarly
to our stalking statute, has pretty much the
same elements.
They threw it out on grounds of overbreadth. And
what the Court found is that a situation in which
somebody could be convicted for causing emo-

App.81a
tional distress includes a lot of things that would
not fit into a First Amendment exception. They
also discussed the mens rea of the Illinois
statute, which really doesn’t apply here after I
read the jury instruction. But I think the thing
that concerned the Illinois Supreme Court was it
was sweeping up potentially a lot of conduct and
speech that would not fall under the First
Amendment—or normally fall within the First
Amendment exception.
And I would also note that Relerford, in that particular case, that that was pretty much the same
type of prosecution, the allegation in part, at
least. I think the Relerford prosecution had a
component; Count I was emotional distress and
Count II was threats. They ended up tossing
both. But if you look at the Relerford case, it’s
basically, like this one, a prosecution of somebody
for causing emotional distress by some postings
and some actions and some statements. And,
basically, the Illinois Supreme Court found that
it takes more than that.
Now, the Illinois Supreme Court did exercise some
judicial restraint. I think the mens rea of the
statute did play a lot in that decision. But if you
read the general tone of the decision, they
weren’t—they were going to toss that statute
until it was substantially narrowed anyway.
So what I would point out to the Court is this
case is a lot like Relerford, and it does not—the
way the state is actually prosecuting this statute,
basically they’re—the State’s theory, as I understand it and what they present to the jury, is Mr.
Dugan wrote sexually explicit letters to Denise

App.82a
Garwick and would not stop when told to stop. I
think I fairly stated the State’s case. That
doesn’t fit within—and causing her emotional
distress, of course. And I guess the State’s argument is it would cause a reasonable person emotional distress as well. That does not fit with any
First Amendment—recognized First Amendment
exception that the Supreme Court has ever issued.
Now, I do have a discussion in there of Rowan v.
U.S. Postal Department (sic). And this case is not
similar to Rowan in any way because Rowan
involves both commercial speech and Rowan did
not involve a criminal sanction. It did involve a
potential for a contempt sanction that the post
office could issue, but I imagine the worst penalty
of someone in Rowan who defied the postal service
would have received—as advertising agencies,
would have received a suspension of their mailing
privileges as opposed to 10 years in prison.
Rowan is a case in which—And I think/suspect
that the state will argue that that creates the
exception to the First Amendment that they get to
argue. But Rowan is a case in which an advertising
agency or multiple advertising agencies were
mailing out what were considered at the time,—
this was in the 1960s—salacious advertising to
people. And Congress passed a statute that
allowed people,—basically an opt-out statute—
that they could contact the post office and get
their names removed from the mailing list, and
the advertisers sued basically seeking a declaratory
judgment that the government couldn’t do this
and citing the First Amendment. And under the
circumstance, it’s important to note that; one, the

App.83a
regulation was not on private speech, it was on
commercial speech, which has been historically
afforded much less protection than speech that’s—
that the government is seeking to punish criminally. It’s also the fact that there was some due
process allowed in the statute.
It’s funny because Mr. Russell wanted to argue
yesterday that there was no need for a protection
order because the protection order didn’t carry
enough punishment. But the thing about the—if
they had sought a—if Ms. Garwick had sought a
protection order, it would have provided some
due process to Mr. Dugan prior to the state seeking
to impose a prison sentence on him.
So, basically, the difference between the way the
state is doing things here and in Rowan is the
state is giving Mr. Dugan no prior due process.
They just want to go straight to prison based
upon the contents of his speech, which I think
does run afoul of the First Amendment in this
matter. Whereas in Rowan, the people weren’t—
first, weren’t facing prison at all but likely the
suspension of their mailing privileges, privilege
to use the post office, and; two, they were being
given some due-process-like option to have a
hearing before the post office to explain why
they were allowed to send their salacious advertisements and people should not be allowed to
remove themselves from the list. And, furthermore, the Rowan case also required people to
contact the post office to get the ball rolling. So,
again, it was an opt-out not an opt-in statute.
Now, there were exceptions to the First Amendment, but I don’t think the state is pursuing

App.84a
those as their theory of the case. One is threat—
true threats. I don’t think Mr. Dugan can be
found guilty of a true threat as a matter of law.
One, he made no threats. The Court has had an
opportunity to read these letters. There are no
threats in the letters. And I established on the
stand he never said I’m going to hurt you, I’m
going to rape you, I’m going to—you’re going to
be my girlfriend whether you like it or not.
There’s just simply nothing threatening in the
letters that a reasonable person could use to say
that this man is threatening me. The worst
thing that’s said is I would like to come to your
house if you’d let me, which I do not think in any
way under Supreme Court jurisprudence would
constitute anywhere even close to being a true
threat.
And you have to remember under Brandenburg v.
Ohio, a true threat is something that has the likelihood of being eminently carried out. In other
words, it’s a threat that has a realistic possibility
of occurring. Mr. Brandenburg was prosecuted
for being a gigantic racist and stating that black
people should be lynched, which was not held to
be a true threat. It was certainly vile language, but
he was under no position to eminently carry out
his threat to harm black people. So the Supreme
Court found that his language did not constitute
a true threat; and neither does Mr. Dugan’s for
the simple fact that he was going to be locked up
in a prison for a number of years after he wrote
the letters.
Even if he had been saying things that could
reasonably be construed as a threat, he was in

App.85a
no danger of actually carrying them out anytime
soon. So under the circumstances, I don’t think
as a matter of law the Court could find anything
Mr. Dugan wrote in the letters is a true threat.
That leaves us with obscenity. By the way, there
are—I think it’s in my jury instruction. There’s
like five other exceptions to the First Amendment
that clearly do not apply here at all. Fighting
words do not apply due Mr. Dugan’s incarceration.
There was no possibility he was going to say
anything to cause Ms. Garwick—to cause him
(sic) physical harm immediately.
There is also copyright trademark. That is obviously not involved in this case at all. There is—
In addition to those two, there’s child pornography; obviously inapplicable. Mr. Dugan does
not talk about molesting kids or depict that in
any way. (Brief pause.) I’m trying to remember
the other two.
Furtherance of another crime. There is no other
crime here. There is an exception that your speech
is not protected. It’s usually the way they go after
conspiracy prosecutions and you can be prosecuted
for furtherance of another crime. But, again,
there is—Mr. Dugan is not talking about any
other criminal conduct that he’s in the midst of
perpetrating in these letters. So there is no other
crime the state can point to.
I’m trying to remember . . . Always get to the end
of the list, I can never remember the last exception,
but . . . Do you have—Would you happen to have
my theory instruction, Your Honor?
THE COURT: Yeah.

App.86a
MR. FOREMAN: Thank you.
And the mystery one that I’m missing, libel/
slander. We’ll just use as one word. Obviously,
this cannot be a libel or slander case because
Mr. Dugan—Now, if Mr. Dugan had written
false statements to a third party about Denise
Garwick, perhaps we could fall under the criminal
libel aspects.
The one additional problem with libel is it’s not
protected by the First Amendment; but most states
that’s simply a civil concept. And it is in Wyoming.
I think there are—my research indicated there
are still 17 states that have criminal libel statutes.
This is not one of them. So even if Mr. Dugan
had been libeling Ms. Garwick to third parties,
there’s no way to criminally punish him for that
speech.
So those five exceptions don’t apply. There are no
true threats in the letters so that leaves us with
obscenity. And, obviously, to some extent that is
the State’s theory because there’s lots of sexy talk
in these letters. I don’t think the letters under
the Miller test, for two reasons, come anywhere
close to being obscene. The mere discussion of sex,
obviously, is not obscenity. To raise the issue of
obscenity and successfully prosecute it, typically
in the past, the U.S. Supreme Court and the
Circuit Courts have held that it requires depictions of such a hardcore nature that it would just
promote official reaction by just general members
of the public. And in this case, I don’t think we’re
anywhere even close to that.

App.87a
The situation here is Mr. Dugan made some—uses
sexual innuendos and sexual comments. He asked
dumb questions of a general nature like how big
are your breasts. He does use the term—I think
the worst term he uses is possibly is cooter. He
maybe talks about the size of his own penis at
one point in a general way. I think he talks
about licking whipped cream or oil off of the
recipient’s body. But that’s nothing that is so
beyond the pale that it would even merit an
obscenity prosecution.
The other problem is when you look at the Miller
test, it requires—the second prong of the Miller
test requires that the state—statute define what
sexual conduct would be obscene, and Wyoming
law doesn’t do that at all. And in the absence of
a state statute defining obscenity in some way to
put people on notice about what would constitute
obscenity and not, what type of sexual conduct
would, we are in a situation where there’s just—
frankly, the law in Wyoming is incomplete and
cannot be used to support it.
So even though they use the word lewd or obscene
in the Wyoming statute, I don’t think a successful
obscenity prosecution is even possible because
they don’t turn around and tell us what obscenity
is. And I think that is a prong in the Miller test.
If I may, where is the quote from Miller? Must
be on this page.
(Brief pause.)
MR. FOREMAN: Here, Part B, the trier of fact must
be guided by whether the average person applying
contemporary community standards would define

App.88a
the work taken as a whole—that’s another issue
I want to address—appeals to the prurient interest.
When I say taken as a whole, it—these letters,
despite McNare’s testimony, are not 75 percent
about sex. And I let that slide because I think
the jury is going to realize that when they read
the letters themselves; but, you know, as a whole
these letters are not—and I think the Court can
make that finding as a whole—they’re not about
prurient interests. They’re mostly whatever dribble
is going on in Mr. Dugan’s brain at the time he
wrote them. And sometimes he does go into sex,
but most often he does not.
“Whether the work depicts or describes in a
patently offensive way sexual conduct specifically
defined by the applicable state law.” That’s where
I’m talking about right now. There is no statute
that defines sexual conduct. There was a Texas
case that’s mentioned lower in my brief. Here it
is. The Fifth Circuit case. Right. That would be
—I think that would be in Ragsdale. And they
were talking in Texas they actually have—it’s
actually part of the—it’s a statute defining sexual
conduct. It’s actually part of a statute to bar
child sex performance. I went and looked it up.
But they defined—the Texas statute defines it as
actual or simulated sexual intercourse, deviant
sexual intercourse, sexual bestiality.
THE COURT: Slow down.
MR. FOREMAN: Sorry. Sexual bestiality—We want
to definitely get this.
Sexual bestiality, masturbation, sadomasochistic
abuse, or lewd exhibition of the genitals, anus,

App.89a
or any portion of the female breasts below the
top of the areola.
So, basically, Texas—One of the things that was
found important in Ragsdale was Texas did, in
fact, define sexual conduct that it would consider
obscene that could be used for consideration of
obscenity, because certainly child sex performance
would be something that would be obscene.
Wyoming law completely lacks that. So there
is—it’s an important issue here. Under the
Miller test there is no way the state can point to
any particular thing, state statute, that bars the
description of what Mr. Dugan did, even though
what Mr. Dugan described, I don’t think, frankly,
is any worse than the sewage that you normally
see on American television or listen to on the
radio. I think you can hear every one of the expressions that Mr. Dugan has used, you could
find instances where it’s been used in popular
media and probably where Mr. Dugan heard it
the first time himself. So I think that makes an
obscenity prosecution here impossible as a matter
of law.
So I do want to bring Ragsdale to your attention,
though, because it’s—Ragsdale is a good case to
look at because it tells us what obscenity really
is. And I am going to presumably—I did the last
trial—I will discuss with the jury the facts of the
Ragsdale case.
A Dallas police officer and his wife were operating
a business on the side. They were mailing out
videos. Two of the videos—the two videos for which
they were prosecuted were Brutally Raped Five
and a Real Rape One.

App.90a
The first video started out apparently depicting a
consensual encounter among a woman and several
other males. As the video progressed, the encounter
transformed from consensual into a brutal rape,
including graphic descriptions of a woman being
flogged, sodomized with a baseball bat, and
tortured with hot wax.
Real Rape One depicted a female hitchhiker who
fled from a car to be chased by the driver, tied
up, raped, and sodomized, beaten, and cut with
a knife. That’s obscene. And a jury found that to
be obscene, and it was upheld as obscene on
appeal to the Fifth Circuit. And that is what it
takes to be obscene.
Mr. Dugan’s, frankly, developmentally disabled
and childish writings are nowhere close to this
in degree, and for that reason there is no valid
obscenity prosecution here. There are no threats
in these letters. This is a First Amendment case,
and for these reasons Mr. Dugan is entitled to—
the Court should find that Mr. Dugan is entitled,
as a matter of law, to a judgment of acquittal.
I would note it is possible to interpret this
statute—and I urge the Court to do so—in a
manner that comports with the First Amendment. I will note that the Wyoming legislature
took care when they put their—when they put
the list together, the five things they specifically
barred in the stalking statute. They took care to
make sure that written threats, verbal threats,
i.e., true threats, and obscenity were on that list,
plus two things, vandalism and nonconsensual
physical contact which probably do not implicate
the First Amendment. That’s conduct related.

App.91a
Although I kind of cheekily note in my motion
maybe the vandalism, you could argue it has
artistic value if it’s graffiti.
But under the circumstance, we’re in a situation
where I think the Wyoming legislature did try to
comport with the First Amendment. So I don’t
think this—if properly interpreted this statute is
facially invalid. I don’t think so. And I agree
with the Wyoming Supreme Court’s ruling in
1996 that this statute, if properly interpreted,
can be a constitutional statute. I don’t think it’s
invalid in every case.
However, I do think that once the Court properly
interprets the statute and finds that this has to
comport with the First Amendment, then looking
at the letters I think the Court has to find as a
matter of law the letters did not contain threats,
were not obscene, and this prosecution runs
afoul of the First Amendment once the statute is
properly interpreted.
Thank you, Your Honor.
THE COURT: Okay. Thank you, counsel.
Mr. Russell, quickly.
MR. RUSSELL [Counsel for State of Wyoming]: Right.
So if you look at criminal procedure Rule 12(g)
talks about waiver of objections and if certain
things aren’t brought up before the trial they’re
deemed waived. 12(b) discusses one of those as
being defenses and objections based on defects in
the institution of the prosecution. That’s exactly
what this is.

App.92a
Mr. Foreman claims that there’s some sort of
ripeness issue there that saves him. If you look
at 12(f), clearly the Court is authorized to take
evidence at a hearing, make evidence-based
rulings so that it can determine issues exactly
like this.
Now, to be fair to Mr. Foreman’s argument, I did
not go and look for the case law on ripeness, so I
suppose it’s possible he’s right. Just looking at
the rule, that doesn’t make sense to me. So I
think that First Amendment argument has been
waived.
I’ll also note that we’re not talking about content
necessarily; we’re talking about conduct. Mr. Lewis
wrote these sexual letters to Denise Garwick. The
first day she got one, she went to law enforcement
who contacted the prison who contacted Mr.
Lewis and told him to stop writing specifically to
Denise Garwick. He continued to do so. He didn’t
change the tone of his letters; in fact, it got worse.
So even if we buy into his speech protections arguments, that’s not what we’re talking about. We’re
talking about conduct that Mr. Lewis continued
to do after being told to stop. It’s conduct. It’s not
speech.
And certainly I’ll agree with Mr. Foreman that
we’re talking about letters. Okay. There’s speech
in letters; I get that. But that’s not the issue.
The issue is conduct.
A lot of the case law that’s been pointed to is
Texas and Illinois and whatever. It’s obviously
not binding in Wyoming. As Mr. Foreman points
out, the statute that we have in Wyoming has

App.93a
been upheld many times as facially valid. It’s
well constructed.
The Illinois case he points to and laws, that’s a
facial challenge to a different statute. Who cares
what the facts of the underlying case were. It was a
facial challenge to that statute. That’s not where
we’re at.
And I would also remind the Court this is a Rule
29 motion; the inferences are for the state.
Thank you.
THE COURT: All right. Thank you, counsel.
MR. FOREMAN: I have one other thing, Your Honor.
THE COURT: Okay. Real quick.
MR. FOREMAN: To respond to the state’s argument,
I will give you two more cases: Harris v. Mexican
Specialty Foods, Inc., 564 F.3d 1301 (11th Cir.
2009) and Capital Associated Industries, Inc. v.
Cooper, 129 F. Supp. 3d 281, U.S. District Court
(M.D.N.C. 2015).
Both of these cases discuss the issue of ripeness
regarding an as-applied challenge. Capital Associated Industries specifically discusses the need
to develop a factual record prior to bringing an
as-applied challenge because an as-applied challenge is based upon the facts as they apply to
Mr. Dugan and it is not simply possible to bring
this matter to a head until the state has had an
opportunity to bring their case.
So an as-applied challenge, frankly, would not have
been ripe as a Rule 12(b) motion unless the
Court were willing to basically have the trial in

App.94a
the matter of a bench trial before the hearing.
The state has to have an opportunity to present
its evidence and we have to see what type of
theories the state is going to present prior to a
decision on the constitutionality as applied to
Mr. Dugan being ripe for challenge.
Thank you.
MR. RUSSELL: And my obvious response is there’s
an affidavit that’s been filed with this Court that
has the underlying facts. We could have dealt
with it at a hearing.
THE COURT: Thank you both.
Here’s what I will say: And I have considered your
motion, Mr. Foreman. And in terms of the Rule
12, I can’t say for sure which way the law would go
on that. I know that when you make a challenge
on an as-applied basis, the Court has to examine
the statutes solely in light of the Defendant’s
specific conduct. So I would be inclined to think
that Mr. Foreman is right that it’s not ripe until
after we hear what that conduct is. But that not
withstanding, I’m not ruling on that basis.
I have researched the case law on this, and I will
tell you that it appears to me that our Supreme
Court has analyzed this statute and I have to
presume that the statute is constitutional, and I
am not going to grant the Defendant’s motion. I
think the evidence presented here is enough for
it to go forward to the finder of fact.
In terms of the constitutional argument though,
Mr. Foreman, you know, I’ll leave that to the
Supreme Court if there’s a conviction here. But

App.95a
with the presumption that it’s valid and the
Supreme Court having said more than once that
this particular statute is constitutional, I think
there’s enough to move forward here. So that
will be my ruling on your judgment of acquittal
motion.
So with that, Mr. Foreman, there was evidence
presented yesterday relative to your client’s being
previously told not to send letters.
MR. FOREMAN: Right.
THE COURT: So you, I think to the extent that 404
(b) applies, you obviously, I think, have a right
to present a limiting instruction on that evidence.
Do you want to do so?
MR. FOREMAN: Well, if I can step back one moment.
THE COURT: Sure.
MR. FOREMAN: The second prong of my argument
was that his conduct didn’t violate the statute. I
think I know how the Court is ruling on that as
well, but I would invite the Court to make a record
on that.
THE COURT: Well, I will tell you that I think the
state made a prima facie showing.
MR. FOREMAN: Okay.
THE COURT: What the evidence was that I heard
was that there were over 50 pages of letters that
had some what I would call graphic depictions,
there were some sexual connotations contained
in those letters, and I heard the victim testify that
it made her nauseous and alarmed, so I think
based on that evidence that there was enough,

App.96a
there was a prima facie showing, that the Defendant committed the charge that we have here and
that the elements can go to the finder of fact.
MR. FOREMAN: Okay. Thank you.
THE COURT: Yeah. Okay. So on the limiting instruction?
MR. FOREMAN: Thank you. We would decline it.
THE COURT: You don’t want it?
[...]

App.97a
JURY TRIAL TRANSCRIPT,
OBJECTION TO JURY INSTRUCTION
(MARCH 21, 2018)
IN THE DISTRICT COURT
EIGHTH JUDICIAL DISTRICT
STATE OF WYOMING, COUNTY OF CONVERSE
________________________
THE STATE OF WYOMING,

Plaintiff,
v.
LEWIS ALAN DUGAN,

Defendant.
________________________
Docket No. 4884
Before: The Honorable F. Scott PEASLEY,
Eighth Judicial District Court Judge.

[March 21, 2018 Transcript, Volume II p. 230]
THE COURT: So the way—So we’re jumping into instructions. Let’s get to that when we get to that.
MR. FOREMAN [Counsel for Defendant]: Okay.
You’re not giving mine. That’s fine.
THE COURT: But we’ll go over that because we’ve
got to talk about our jury instructions because
that’s the next stage in our proceedings here.
MR. FOREMAN: Can I see my 3, Your Honor?

App.98a
THE COURT: The obscenity?
MR. FOREMAN: Before you rule on it, there’s one
amendment I want to make to it just on the record.
I didn’t have time this morning to prepare it in
writing.
(Brief pause.)
MR. FOREMAN: In the second paragraph, the phrase
“Obscenity restrictions are meant to apply to
writings that depict or describe patently offensive
hardcore sexual conduct.” I would amend that to
say “Obscenity restrictions are meant to apply to
writings, comma, taken as a whole, comma, that
depict or describe patently offensive hardcore
sexual conduct.”
THE COURT: Okay.
MR. FOREMAN: Thank you.
THE COURT: Well, here’s what I will tell you. I did
look into this. Our statutes obviously do not define
it.
MR. FOREMAN: Nope.
THE COURT: And under Title 8, 8-1-103, it provides
that “words and phrases shall be taken in their
ordinary and usual sense.” Frankly, that’s what
I think we need to do here.
MR. FOREMAN: Okay.
THE COURT: So I’m going to deny your Instruction 3.
MR. FOREMAN: Thank you. You’ll note that I did
advise the jury in voir dire yesterday of that.
THE COURT: I know. And on your verdict form, Mr.
Foreman, again I told you this, I think, before—

App.99a
MR. FOREMAN: Yeah.
THE COURT: —I don’t think that under this particular statute that we need to give a special interrogatory, so—
MR. FOREMAN: Fair enough.
THE COURT: —it’s just going to be a simple Count I
with guilty, not guilty.
MR. FOREMAN: Okay.
THE COURT: So do you have your instructions with
you here?
MR. RUSSELL: I don’t, Your Honor.
MR. FOREMAN: Neither do I, Your Honor.
[...]

App.100a
DEFENDANT’S PROPOSED INSTRUCTION NO. 3
OBSCENITY—DEFINITION
To determine whether the writing is obscene,
the State must prove beyond a reasonable doubt that:
(a) the average person, applying contemporary
community standards, would find that the
writing, taken as a whole, appeals to the
prurient interest;
(b) the writing depicts or describes, in a patently
offensive way, sexual conduct specifically
defined by the applicable state law; and
(c) the writing, taken as a whole, lacks serious
literary, artistic, political, or scientific value.
Obscenity restrictions are meant to apply to
writings that depict or describe patently offensive
‘hard core’ sexual conduct specifically defined by the
regulating state law, as written or construed.
If the State is unable to prove all of the elements
above beyond a reasonable doubt, then the writing in
question is not obscene.
Given:
Judge
Source:
● Miller v. California, 413 U.S. 15, 24, 27, 93 S.Ct.
2607, 2615-16 (1973).

